<html>
<title> - EXAMINING QUALITY AND SAFETY IN CHILD CARE: GIVING WORKING FAMILIES SECURITY, CONFIDENCE AND PEACE OF MIND</title>
<body><pre>[Senate Hearing 112-864]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-864

 
  EXAMINING QUALITY AND SAFETY IN CHILD CARE: GIVING WORKING FAMILIES 
                 SECURITY, CONFIDENCE AND PEACE OF MIND

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING QUALITY AND SAFETY IN CHILD CARE, FOCUSING ON GIVING WORKING 
            FAMILIES SECURITY, CONFIDENCE, AND PEACE OF MIND

                               __________

                           SEPTEMBER 8, 2011

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                  U.S. GOVERNMENT PRINTING OFFICE
87-199                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4126312e012234323529242d316f222e2c6f">[email&#160;protected]</a>  


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania   RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina         ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                 JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado          LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island     MARK KIRK, Illinois          
RICHARD BLUMENTHAL, Connecticut      


                    Daniel E. Smith, Staff Director

                  Pamela Smith, Deputy Staff Director 

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                 ______

                 Subcommittee On Children And Families

                BARBARA A. MIKULSKI, Maryland, Chairman

PATTY MURRAY, Washington             RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont         LAMAR ALEXANDER, Tennessee
ROBERT P. CASEY, JR., Pennsylvania   JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina         RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                 JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado          MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut      MICHAEL B. ENZI, Wyoming (ex 
TOM HARKIN, Iowa (ex officio)        officio)                      


                    Jessica McNiece, Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                               STATEMENTS

                      THURSDAY, SEPTEMBER 8, 2011

                                                                   Page

                           Committee Members

Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....     1
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................     1
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................     3
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................     3
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................     5
Blumenthal, Hon. Richard, a U.S. Senator from the State of 
  Connecticut....................................................    27
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................    34

                               Witnesses

Karolak, Eric, Ph.D., Executive Director, Early Care and 
  Education Consortium, Washington, DC...........................     6
    Prepared statement...........................................     8
Bryant, Donna M., Ph.D., Senior Scientist, University of North 
  Carolina FPG Child Development Institute, Chapel Hill, NC......    12
    Prepared statement...........................................    13
Brantley, Charlotte M., President and Chief Executive Officer, 
  Clayton Early Learning, Denver, CO.............................    20
    Prepared statement...........................................    24

                                 (iii)

  


  EXAMINING QUALITY AND SAFETY IN CHILD CARE: GIVING WORKING FAMILIES 
                 SECURITY, CONFIDENCE AND PEACE OF MIND

                              ----------                              


                      THURSDAY, SEPTEMBER 8, 2011

                                       U.S. Senate,
                     Subcommittee on Children and Families,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:25 a.m. in 
Room 216, Hart Senate Office Building, Hon. Barbara Mikulski, 
chairman of the subcommittee, presiding.
    Present: Senators Mikulski, Casey, Hagan, Franken, Bennet, 
Blumenthal, and Burr.

                      Statement of Senator Franken

    Senator Franken. This hearing will come to order. The 
Chair, Senator Mikulski, is stuck in traffic. So I'm going to 
get it started, but she'll be here momentarily.
    I want to thank the witnesses for being here today on this 
extremely important topic, which is on early childhood 
education and care, and it's something that I know that our 
Ranking Member, Senator Burr, cares about a lot.
    And why don't I pass it off to you? If you have any 
statements you'd like to make, please do.

                   Opening Statement of Senator Burr

    Senator Burr. Well, I thank my colleague, and I look 
forward to the Chair's arrival. I apologize for the weather to 
our guests from all over the country, but occasionally this 
happens. And I know that Maryland was deluged last night, and 
the Chair has to drive in from Maryland, so I'm sure she's been 
taking some alternative routes.
    If I could, in her absence, let me talk about the Child 
Care Protection Act of 2011. This is a bill that Senator Enzi 
and I have introduced and the Chair has graciously co-
sponsored. It's one of many proposals for CCDBG reauthorization 
related to quality and safety that I believe this subcommittee, 
the committee and the Congress needs to consider. We'll hear 
about another one from Senator Casey, who is just arriving.
    As we discussed at our last hearing, CCDBG has not been 
reauthorized since 1996, and there are critical, commonsense 
changes needed to ensure that infants and toddlers receive 
high-quality care in a healthy and safe environment, and I want 
to stress high quality in a safe environment. Far too many kids 
in this country are in child care subsidized and paid for by 
the Federal Government that is not safe, healthy, or of general 
good quality.
    While it's important for working parents to have the access 
to child care, what's more important is to have access to 
quality child care. One of the more commonsense changes that I 
propose is a background check. When parents leave their 
children in the care of someone else, they want to know that 
their children are in a safe place. Parents shouldn't have to 
worry that they might be dropping their children off to be 
cared for by someone who has been convicted of a violent crime.
    Although a recent survey found that 95 percent of parents 
with children under 5 support a background check for child care 
providers, and 85 percent of parents assume that the child care 
providers have gone through a background check or they wouldn't 
be there working with children, only 10 States require that 
child care providers complete a comprehensive background check, 
State and Federal fingerprint checks, as well as comparing 
individuals' names against sex offender lists and child abuse 
and neglect registries.
    The Child Care Protection Act would institute a 
comprehensive background check for child care providers to 
assure parents that their children are being taken care of by 
quality individuals in a safe environment. Let me just 
highlight for a second for my colleagues some of the pieces 
that are found in this Act.
    It requires States that receive funds under the Child Care 
and Development Block Grant program to conduct comprehensive 
background checks, State and Federal fingerprint checks, sex 
offender registry checks, and a check of child abuse and 
neglect registry for all licensed, regulated, or registered 
providers.
    It makes individuals ineligible to be employed by a child 
care provider, operate a family child care home, or receive 
child care subsidies if such individual refuses to consent to a 
background check, makes false statements in connection with a 
background check, is registered or required to be registered on 
a State sex offender registry, or has been convicted of a 
violent crime, including child pornography, spousal abuse, a 
crime involving rape or sexual assault, kidnapping, arson, or 
physical assault, battery, or other drug-related offenses 
committed within the last 5 years.
    It requires that background checks be processed as 
expeditiously as possible, and restricts fees to the actual 
cost or less to the State for the administration of background 
checks.
    It requires complete background checks to be repeated every 
5 years, and it requires States to have an appeals process in 
place by which a child care staff member may appeal the results 
of a criminal background check to challenge the accuracy or 
completeness of the information contained in the individual's 
criminal background report.
    It becomes effective 2 years after the enactment of this 
Act.
    It's very straightforward and I think easy to understand 
what we're getting at. We're trying to bring the uniformity 
across the country of the need to police better those who work 
in child care facilities and to give that ultimate assurance to 
every parent that if there are Federal funds involved, then the 
individuals who have worked there have been thoroughly vetted 
and checked. And I would hope that my colleagues unanimously 
would support this Act.
    And with that, I will conclude, as I see our illustrious 
chairwoman entering the room, and I'm sure she will have some 
remarks to make. Welcome.

                 Opening Statement of Senator Mikulski

    Senator Mikulski. Good morning, everybody. Sorry I'm late.
    Senator Franken, thanks for kicking off the hearing.
    I'm going to catch my breath a minute.
    Senator Casey, I know you're going to have some ideas to 
present. But first, I understand that they're evacuating 
100,000 people from Wilkes-Barre, so I know you've got a lot on 
your mind this morning, and our heart goes out to your 
constituents.
    For those of us who are coastal Senators, we know what it's 
like to live through hurricanes and floods, and Minnesota has 
had its share, yes, earthquakes, etc. So this seems kind of a 
benign environment compared to what's going on.
    Let me just say a few words, and I'll give my own statement 
a little bit later. I'm going to go right to you because I know 
you have another commitment and an emergency situation.
    First of all, thanks for everybody coming, our experts and 
our colleagues. The purpose today is really on quality and 
safety and making sure that families have confidence and peace 
of mind when they turn to use child care, and I'm going to 
compliment my colleagues on their initiatives and the ideas in 
the legislation they've introduced.
    Senator Burr and I have worked for some time on protecting 
vulnerable populations. I want to thank him for his 
contribution, on his idea on child safety and making sure that 
we really do the appropriate screening so no child is 
vulnerable in child care, and we look forward to seeing how we 
can incorporate that in upcoming legislation.
    Senator Casey is a longstanding advocate of children. Every 
issue, he makes sure there's a children's focus as we look at 
it and has put a lot of thought into both the reauthorization 
of the Child Care and Development Block Grant, and also the 
emphasis on quality and safety.
    Senator Casey, why don't we hear your ideas? We've heard 
Senator Burr's. Then we'd like to go to our distinguished 
panel, and hi to you. And then we can have just a general 
conversation. But if you need to go, I think we have an idea of 
where you want to go ahead; OK?
    So, Senator Casey, why don't you proceed?

                       Statement of Senator Casey

    Senator Casey. Madam Chair, thank you very much. We're 
grateful for this opportunity. We're also grateful that you got 
here. I was actually traveling similar roads last night, and it 
was bad last night. I can only imagine how bad it is today 
where you were, so thank God you're here.
    I want to thank our witnesses for being here, and all of 
our colleagues. I know that Senator Mikulski, as the chair of 
the subcommittee, has had a determined focus on a number of 
issues that relate to children, especially today on this issue 
of child care. And I know that Senator Burr and Senator 
Franken, who started us off today, have similar concerns.
    I think we're focused principally on one of our priorities, 
our children, and obviously their parents and their caregivers, 
because if we say we care about our kids, and as I've often 
said, every child is born with a light inside them, if that 
light is going to reach the full measure of its potential, then 
we've got to get a number of things right, and one of those, of 
course, is child care.
    For the reasons that Senator Mikulski just outlined, if 
it's in a phrase, it's peace of mind, so that when a parent 
begins a relationship with a child care facility, that they can 
do that with the peace of mind to know that they'll be getting 
the kind of care they would hope to see, as if they were with 
their child every moment of the day and that that child is 
going to have the kind of quality early care and education that 
we should have a right to expect.
    I'll just highlight one piece of legislation, and then we 
can move on. I have a bill called Starting Early, Starting 
Right, Senate bill 1155, and it basically focuses on four major 
areas.
    First, the health and safety issues, obviously.
    Second, access to child care and payments to providers. 
There's a whole series of provisions on that.
    Obviously, third, quality, the quality of the care and the 
services provided.
    And then finally, the workforce that we need to have in 
place to take care of our children.
    So I think this issue of child care is a bipartisan 
concern. No matter where you turn, we have folks in both 
parties all across the country concerned about this as a major 
part of our workforce and as a major part of our ability to 
grow the economy of the United States of America, and this is 
one of the most important hearings we'll have, I think, on any 
issue that relates to children this year, and I want to thank 
Chairwoman Mikulski for bringing us all together.
    Senator Mikulski. Thank you very much, Senator Casey.
    This is the second of our hearings. The first one was about 
``do we get a bang for the buck? '' In other words, we have to 
have a frugal government, and therefore our investments need to 
be very targeted, and we established that in early education 
and it was a terrific investment. Again, we like to be 
evidence-based and data-driven. Now we're onto quality and 
safety, and we want to get--and I think this is what Senator 
Burr and Senator Casey have talked about, and other of our 
colleagues have talked about--now we'd like to get ideas from 
our panel on what you think are the must-do list to ensure that 
we can ensure safety and quality, but also look at the budget 
realities, that we can't have every training program we'd like 
to have, but we need to have a must-do list than a should-do 
list and a we-would-like-to-do list. And if you could share 
your insights, your experience, your scholarship with us, it 
would be greatly appreciated.
    I'm going to introduce Dr. Karolak, who represents, as the 
executive director, the Early Child Care and Education 
Consortium. This is an alliance of more than 7,500 early 
learning programs providing care and education to over a 
million children in all of our States and the District of 
Columbia. You led, Dr. Karolak, as I understand, the National 
Child Care Information Center, which was the largest 
clearinghouse and technical assistance program for early 
education care. And one of the questions I'll ask you later, 
I'll just tell you now, is that we had an excellent hearing 
where we reviewed also military child care for information 
purposes, and we know that they have a national hotline for 
individuals to report any issues related to safety violations 
or suspected child neglect or child abuse, because as much as 
we want to do inspections, they might be limited by the State 
to one a year. We're going to insist on inspections in whatever 
we do, but there's nothing like people being on the ground. So 
we need watchdogs.
    You know, we all like to do hotlines, so that will be one 
of the questions I ask you. But I know that you've conducted 
policy research and fiscal analysis in the area of child 
welfare. So we'll look forward to having your testimony. And 
we'll just introduce everybody.
    Senator Burr, did you want to introduce Dr. Bryant?
    Senator Burr. I would be delighted to. Donna Bryant is the 
senior scientist at the Frank Porter Graham Child Development 
Institute at the University of North Carolina at Chapel Hill, 
one of the finest institutions in the country, I might add. 
That's tough for a Wake Forest graduate to admit, but given 
that two of my sons, both my sons graduated from Chapel Hill, I 
have to claim part of it.
    Dr. Bryant has been at Frank Porter Graham for 33 years. 
Her current research focuses on the evaluations of quality 
indicators and quality rating and improvement systems. Over the 
years, Dr. Bryant has conducted studies on child care centers, 
family child care home visit programs and other programs that 
provide early intervention and prevention for at-risk children. 
She's done much of the evaluation work for the North Carolina 
Smart Start Program, which I know Senator Bennet is familiar 
with.
    We are delighted to have you here today and to have your 
expertise and knowledge as part of this hearing. Thank you for 
being here.
    Senator Mikulski. And then, Senator Bennet, Dr. Brantley.

                      Statement of Senator Bennet

    Senator Bennet. Thank you very much, Madam Chair. I want to 
thank you and Senator Burr for your bipartisan commitment to 
ensuring that our children have access to safe and high-quality 
childcare. It's always such a pleasure to come to these 
committee hearings because of that.
    I also want to thank you for bringing Charlotte Brantley to 
Washington to highlight some of the great work happening in 
Colorado on this topic. I've had the honor of working with 
Charlotte, and she's got a wealth of experience and great 
insights to share with the committee today.
    Charlotte has dedicated her career to the field of early 
childhood development and education. She has a deep 
understanding of the Child Care and Development Block Grant, is 
a leading advocate, an incredibly skilled practitioner, and I'm 
so pleased to welcome her here today.
    Charlotte runs the Clayton Early Learning Center in Denver. 
Last year Clayton was named a Center of Excellence by the U.S. 
Department of Health and Human Services. Clayton is part of the 
Denver Preschool Program, which provides parents with 
additional subsidies to attend high-quality child care centers 
like Clayton. I might add that it also enabled the Denver 
Public Schools in 1 year to go from serving 500 4-year-olds in 
early childhood education to 2,000 4-year-olds in early 
childhood education.
    Clayton is a model in continuous improvement using research 
to identify the best practices and integrating them into the 
learning environment for the children and their Head Start and 
Early Head Start programs. Charlotte understands early learning 
policy options, and I hope you will enjoy her testimony. I 
apologize that I will likely have to step out for votes on the 
Banking Committee. But the one thing I can tell you about 
Clayton is that every one of us would be proud to have our 
children or grandchildren in that program, and that ought to be 
the standard we have for all the children across the United 
States.
    Thank you, Madam Chair.
    Senator Mikulski. Welcome. Dr. Karolak, we're going to go 
right with you and then work down. We know that many Senators 
wanted to come, but once the President announced his jobs 
speech today, everybody is doing double duty and triple time. 
So don't think that because they're not here--they're 
represented very well by their staffs, and I think there is a 
mood in this subcommittee for us to really try to form a 
bipartisan bill, and we look forward to your advice and 
counsel.
    Doctor, do you want to kick it off?

  STATEMENT OF ERIC KAROLAK, Ph.D., EXECUTIVE DIRECTOR, EARLY 
         CARE AND EDUCATION CONSORTIUM, WASHINGTON, DC

    Mr. Karolak. Understood. Thank you, Senator Mikulski, 
Senator Burr, Senator Franken, and other members of the 
subcommittee. It's a real privilege to be here with you today 
and to have the committee focused on the Child Care and 
Development Block Grant and possible reauthorization in the 
near term.
    Those 7,500 centers enrolling nearly a million children in 
every State in the country share something in common. They 
share a common commitment to developing high-quality early 
learning programs at scale. However, my members represent only 
a small portion of the child care market, and quality varies 
widely in this diverse industry.
    Just about every parent I've spoken with--rich, poor, 
urban, rural--anguishes whether they've found the right, the 
best arrangement for their child, and too often care bought 
with public subsidies is of lower quality than it should be. 
Still, for the families who receive this help, this assistance 
is nothing short of an economic lifeline.
    Child care is a vital resource. Parents need child care in 
order to go to work, and children in care learn the skills they 
need to succeed in school and in life. This two-generation 
impact, benefits to the child and to the parent, helps our 
Nation stay competitive with a stronger workforce today and 
into the future.
    It's impossible really to talk about one component of child 
care in isolation. Health and safety requirements are the 
foundation for quality, and quality has an impact on the cost 
of care, and cost affects affordability and access, and all of 
these are a function of the available public and private 
resources.
    Since 1990, CCDBG has helped literally millions of 
Americans, low-income working families, pay for child care, but 
its requirements and funding levels have been limited. States 
are required to have health and safety regulations, yes, but 
standards specifically vary by State, and vary widely. And 
funding has not kept pace with the growth in demand or the rise 
in cost. Over the last decade, the number of children likely 
eligible rose, while the number of children helped through 
CCDBG actually fell. Today, only one in six eligible children 
receives assistance.
    Stagnant funding has also dramatically eroded CCDBG's 
buying power. In 2001, 22 States reimbursed child care at the 
federally recommended level, which meant a parent with CCDBG 
could purchase care at three out of four providers in her 
community. Today, however, only six States reimburse at that 
level, and many pay far less, which means that parents are less 
able to access high-quality care, and participating providers 
have fewer resources with which to deliver it.
    Now, the recession has affected squeezed family budgets, 
and we're beginning to see cuts at the State level. North 
Carolina's child care waiting list increased nearly 25 percent 
in the last year. In Maryland, Child Care Resource Network, a 
vital support for training and quality improvement, was cut by 
nearly 20 percent last year. Our members across the country 
have seen families lose child care assistance and reluctantly 
leave our programs to seek cheaper, lower-quality arrangements.
    So this is the context as we examine ways to improve CCDBG. 
What can be done quite literally really depends on the 
resources that we are able to bring to bear in any 
reauthorization. With few resources, States could lengthen the 
eligibility period to 1 year and create different initial and 
continuing eligibility limits. This would improve continuity of 
care and provide an added measure of stability for families and 
providers.
    With more robust additional funding, States could develop 
quality rating and improvement systems, which I understand the 
other speakers will speak to also. Although half of the States 
currently have quality rating and improvement systems, most do 
not adequately fund the cost to reach or maintain higher levels 
of quality. That will need to be addressed if the potential of 
quality rating and improvement systems is to be realized.
    Other ideas along a kind of resource reform continuum 
include incentivizing quality and reimbursement policies. 
States should be required to raise rates over time at least to 
that minimum Federal recommended level so that parents have 
greater buying power in the marketplace.
    Strengthening health and safety requirements and making 
them more uniform across States and among providers is 
important. We support basic child protection such as annual 
inspections and minimum pre-service and ongoing training 
requirements.
    Moving toward requiring providers paid by CCDBG to meet 
minimum licensing standards. Unlicensed providers have become a 
large part of the subsidy system in a number of States, 
accounting for 1 in 5 children served overall. This is a long-
term goal that will require new strategies and resources to 
address.
    There is much that can be done if we commit ourselves. 
Pursuing any of these reforms without adequate funding will 
mean either the anticipated improvement will not materialize or 
that fewer children will be served and working parents will 
lose access to care, to that vital economic lifeline. We can't 
afford either of those options.
    [The prepared statement of Mr. Karolak follows:]

               Prepared Statement of Eric Karolak, Ph.D.

    Good morning, Chairwoman Mikulski, Senator Burr, and members of the 
Subcommittee on Children and Families. Thank you for inviting me to 
testify today on quality and safety in child care.
    I am Eric Karolak, executive director of the Early Care and 
Education Consortium (ECEC), an alliance of America's leading national, 
regional, and independent providers of quality early learning programs. 
Consortium members operate more than 7,500 centers enrolling nearly 1 
million children in all 50 States and the District of Columbia. Our 
members include private non-profit organizations and for-profit 
companies who offer full-day/full-year programs for children birth 
through age 12, State-funded prekindergarten, before- and afterschool 
programs, extended day, and summer programs in licensed centers with 
enrollments that reflect the rich diversity of our communities and 
Nation.
    ECEC's members share a commitment to providing quality child 
development and early learning programs at scale--across the member 
locations of a State association, across the hundreds of centers of a 
modern corporation, across the affiliates of a national non-profit. 
Everything we do is devoted to assuring that the children in our care 
are happy and successful, and develop to their full potential as 
students, future employees, and citizens.
    This commitment to quality shows in results from a recent survey of 
our membership,\1\ which found that:
---------------------------------------------------------------------------
    \1\ ECEC Child Care Provider Survey 2009 (Early Care and Education 
Consortium, May 2011). Available online at http://ececonsortium.org/
ChildCareProvSurvey.pdf.

    <bullet> six out of ten ECEC member centers surveyed were 
accredited or seeking accreditation;
    <bullet> more than 70 percent of ECEC member centers participate in 
their State's quality rating and improvement system--more than a 
quarter at the highest quality rating possible;
    <bullet> more than 60 percent of our lead teachers have 5 or more 
year's experience, and nearly one-third have 10 or more year's 
experience.

    ECEC is the largest national organization of licensed child care 
centers; of centers participating in the child care subsidy program and 
in the Child and Adult Care Food Program; of community-based providers 
of State-funded prekindergarten; and of providers of employer-sponsored 
child care programs--all signs of the confidence public and private 
consumers place in ECEC's members as providers of high quality child 
care and early learning programs.
    However, ECEC members represent only about 7 percent of the more 
than 110,000 licensed child care centers operating nationwide, and none 
of the nearly 200,000 licensed family child care homes, nor any of the 
countless unlicensed providers.\2\ Quality varies widely in this 
diverse industry. And too often, the care that is bought with public 
subsidies is of lower quality than it should be. Still, for the 
families who receive help with the cost of child care, this assistance 
is nothing short of an economic lifeline.
---------------------------------------------------------------------------
    \2\ The 2007 Child Care Licensing Study (National Child Care 
Information and Technical Assistance Center and the National 
Association for Regulatory Administration, February 2009), pp. 8-9. 
Available online at http://www.naralicensing.org/2007_Licensing_Study.
---------------------------------------------------------------------------
    Child care is a vital resource for America's families, our 
communities, and our Nation's future.
    Parents need child care so they can go to work. With child care, 
families can get ahead because parents have the support and peace of 
mind they need to be productive at work. Children in child care learn 
and develop skills they need to succeed in school and in life. The most 
recent findings from the National Institute of Child Health and Human 
Development's study of child care show that the positive effects of 
high-quality child care on academic achievement and behavior in a 
child's early years last at least through adolescence.\3\ And numerous 
economic analyses detail the substantial return on investment 
expenditures on quality early childhood education and care have, up to 
a return of $8 for each $1 spent.\4\ This two-generation impact--
benefits to the child and to the parent--helps our Nation stay 
competitive, with a stronger workforce now and in the future.
---------------------------------------------------------------------------
    \3\ Vandell, D., Belsky, J., Burchinal, M., Steinberg, L., 
Vandergrift, N., & the NICHD Early Child Care Research Network. (2010). 
Do effects of early child care extend to age 15 years? Results from the 
NICHD Study of Early Child Care and Youth Development. Child 
Development, 81(3), 737-56.
    \4\ Art Rolnick and Rob Grunewald, ``The Economics of Early 
Childhood Development as Seen by Two Fed Economists,'' Community 
Investments (Fall 2007), pp. 13-14. This overview and numerous other 
works exploring the economic returns from investing in high quality 
early childhood programs are available from the Web site of the 
Minneapolis Federal Reserve Bank at http://www.minneapolisfed.org/
publications_papers/studies/earlychild/.
---------------------------------------------------------------------------
    It's impossible to talk about any component of child care in 
isolation. Health and safety requirements are the foundation for 
quality. Quality has an impact on the cost of care, which affects 
program access and affordability. And all are affected by the available 
resources.
    The child care market is in reality countless local markets with 
wide variations in the quality of care provided. Some local markets 
operate well, others imperfectly with resulting shortages or other 
dysfunctions. No matter the market, quality costs. Some parents enter 
these markets with college degrees, ``9-to-5'' jobs, and healthy 
incomes; others have fewer advantages, work non-traditional-hour jobs 
in our 24/7 economy, and live in underserved areas. Over the last 15 
years, I've heard from many parents in a variety of socio-economic 
circumstances, from Philadelphia attorneys to Toledo factory workers, 
anguished about whether they've found the best possible child care 
arrangement for their child.
    Since 1990, the Child Care and Development Block Grant (CCDBG) has 
helped literally millions of low-income working Americans pay for child 
care, care they otherwise might not be able to afford but which they 
need to work or to attend job training or educational programs. While 
CCDBG has helped low-income working families afford child care, its 
requirements and funding levels have been limited.
    We all know that strong health and safety requirements are the 
foundation of quality programming, but at the time CCDBG was created 
States strongly opposed national standards in this area. States were 
required to have health and safety regulations, but what those 
requirements were was left to the discretion of the States. CCDBG also 
was designed to help States improve the quality of child care. States 
must spend at least 4 percent of their block grant award on activities 
that improve the quality of care. On average, States spend nearly 7 
percent on these quality initiatives; along with additional funds 
targeted for other quality activities and improvements in infant/
toddler care and school age care, State spending on quality activities 
in 2009 approached 1 billion or about 11 percent of CCDBG 
expenditures.\5\ New health and safety requirements, like new quality 
initiatives, will come with added costs to the States and to providers.
---------------------------------------------------------------------------
    \5\ Hannah Matthews, Child Care Assistance in 2009 (Center on Law 
and Social Policy, March 2011), p.3. Available online at www.clasp.org/
admin/site/publications/files/childcareassistance
2009.pdf.
---------------------------------------------------------------------------
    Over the last decade, Federal funding has not kept pace with the 
growth in demand or the rise in the cost of child care.\6\ As a result, 
during this period, the number of children living in low-income 
families that may be eligible for child care assistance rose while the 
number of children helped through CCDBG actually fell.\7\ Today, only 
one in six eligible children receives assistance through CCDBG.\8\
---------------------------------------------------------------------------
    \6\ Base year funding for CCDBG has remained essentially flat since 
2000. The American Reinvestment and Recovery Act of 2009 included $2 
billion in funds for the Child Care and Development Block Grant, but 
States have expended these one-time monies.
    \7\ Hannah Matthews, Child Care Assistance: A Program That Works 
(Center for Law and Social Policy, 2009), p. 2. Available online at 
http://www.clasp.org/admin/site/publications/files/0452.pdf.
    \8\ U.S. Department of Health and Human Services, Office of Human 
Services Policy, Office of the Assistant Secretary for Planning and 
Evaluation, Estimates of Child Care Eligibility and Receipt for Fiscal 
Year 2006 (April 2010). Available online at http://aspe.hhs.gov/hsp/10/
cc-eligibility/ib.shtml.
---------------------------------------------------------------------------
    Stagnant funding has brought a dramatic erosion in the buying power 
of CCDBG, with hardships for families and participating providers. In 
2001, 22 States reimbursed child care at the federally recommended 75th 
percentile of the State's market rate survey. In other words, in nearly 
half the States, a parent with CCDBG's assistance could choose to buy 
child care from three out of every four providers in her community. In 
2010, only six States reimbursed at the 75th percentile, and many 
States pay far below that essential level.\9\ This dramatic reduction 
in reimbursement rates means parents are less able to access high 
quality care; providers participating in the subsidy program have fewer 
resources with which to deliver quality programming; and other 
providers are deterred from participating in the subsidy program.
---------------------------------------------------------------------------
    \9\ Karen Schulman and Helen Blank, State Child Care Assistance 
Policies 2010: New Federal Funds Help States Weather the Storm 
(National Women's Law Center, September 2010). Available online at 
http://www.nwlc.org/sites/default/files/pdfs/
statechildcareassistancepolicies
report2010.pdf.
---------------------------------------------------------------------------
    And in the last few years, we've seen the impact of the economic 
downturn, compounded by State budget cuts. Family budgets have been 
squeezed, and many States have cut back general fund appropriations for 
child care. North Carolina's waiting list for child care assistance 
increased from 37,900 in 2010 to 46,700 in 2011; in Maryland, funding 
for the Child Care Resource Network, a vital support for training and 
quality improvement, was cut by nearly 20 percent; Arizona has cut the 
number of children receiving child care assistance from 48,000 to 
29,000 since February 2009; and in Denver, CO they've stopped accepting 
applications for child care assistance altogether.\10\
---------------------------------------------------------------------------
    \10\ ``Additional Child Care Funding Is Essential to Prevent State 
Cuts'' (National Women's Law Center, August 18, 2011). Available online 
at http://www.nwlc.org/resource/additional-child-care-funding-
essential-prevent-state-cuts.
---------------------------------------------------------------------------
    As a result, ECEC members have seen families receiving child care 
assistance forced to leave our programs and seek cheaper, lower quality 
arrangements. And many providers have been forced to make difficult 
decisions regarding whether to continue enrolling families receiving 
child care subsidies and even whether to keep centers open especially 
in low-income neighborhoods.\11\
---------------------------------------------------------------------------
    \11\ ECEC Child Care Provider Survey 2009 (Early Care and Education 
Consortium, May 2011), p. 10.
---------------------------------------------------------------------------
    Families are under huge stresses in our rapidly changing economy. 
With two-
income families now the norm, child care is as vital to the family 
economy as it is to the economy of our communities and our Nation. For 
many parents, if they lose child care assistance, they have no 
alternative but to buy cheaper care that is less safe and less stable, 
making it harder for parents to work, and less supportive of their 
child's healthy growth and development. As a Tehachapi, California bank 
employee, facing the loss of child care assistance told us recently, 
``I am very concerned of who my children will be with on a day-to-day 
basis as I will not have a stable child care for them.''\12\
---------------------------------------------------------------------------
    \12\ ``CalWORKS Stage 3 Funding is Crucial for Families, Child Care 
Providers and the Economy'' (Early Care and Education Consortium, 
Updated December 8, 2010). Available online at http://
action.ececonsortium.org/site/DocServer/
ECEC_Cal_Parent_Stories_updated_12.8.
10.pdf.
---------------------------------------------------------------------------
    It is important to keep this context in mind as you examine ways to 
improve the Child Care and Development Block Grant. Congress has a 
number of options to consider, drawing on innovations pioneered in 
States with CCDBG funds and benefiting from a rich body of research in 
early childhood education. What improvements specifically can be 
accomplished is a function of the level of resources that can be 
brought to bear in reauthorization.
    For example, with few new resources, CCBDG reauthorization could 
require States to lengthen the eligibility period for child care 
assistance to 1 year, and to create different initial and continuing 
income eligibility limits. Already 25 States have annual eligibility 
determination, and 11 States allow families to remain in the subsidy 
program at a higher income level than the threshold for initial 
eligibility.\13\ This would enhance quality by assuring continuity of 
care, insulating children from abrupt changes in their care 
arrangements caused by temporary or modest changes in family 
circumstances, and providing an added measure of stability for low-
income families and the providers who serve them.
---------------------------------------------------------------------------
    \13\ Child Care and Development Fund Report of State and Territory 
Plans, FY2010-11 (Child Care Bureau, Administration for Children and 
Families, U.S. Department of Health and Human Services, n.d.). 
Available online at http://nccic.acf.hhs.gov/files/resources/
sp1011full-report.pdf. For States with tiered income eligibility 
levels, the most recent census is included in Child Care and 
Development Fund Report of State and Territory Plans, FY 2008-9 (Child 
Care Bureau, Administration for Children and Families, U.S. Department 
of Health and Human Services, n.d.). Available online at http://
nccic.acf.hhs.gov/pubs/stateplan2008-09/index.html.
---------------------------------------------------------------------------
    With robust additional funding, States could develop voluntary 
quality rating and improvement systems (QRIS) that provide a framework 
for parents to understand different levels of quality and for programs 
to be rewarded and compensated for the additional costs of achieving 
and maintaining higher levels of quality. Already half of the States 
have a QRIS; however, most do not include adequate resources for 
provider supports and financial incentives that are essential to make 
meaningful and sustained quality improvements. In fact, most do not 
even pay at the 75th percentile for higher quality care.\14\ 
Adequately-funded, QRIS can create a roadmap to quality for programs, 
help parents navigate the market, and move more low-income children 
into quality programs.
---------------------------------------------------------------------------
    \14\ NAEYC Quality Rating and Improvement Systems Toolkit (National 
Association for the Education of Young Children, July 2010). Available 
online at http://www.naeyc.org/policy/statetrends/qris.
---------------------------------------------------------------------------
    In between these ends of a reform continuum, there are many 
potential improvements and a few that deserve consideration include:

    <bullet> Incentivizing quality in reimbursement policies. 
Ultimately, States should be required to raise rates over time at least 
to the 75th percentile of currently valid market rates. This would 
increase the buying power of CCDBG and allow parents to access higher 
quality providers.
    <bullet> Strengthening health and safety requirements and making 
them more uniform across States and among providers. Many minimum 
standards vary widely from State to State and by type of provider. 
These fundamental elements of quality should not be subject to the 
accident of location or the choice of provider. We support basic, 
consistent child protections in health and safety regulations. With 
appropriate funding, changes could be made that would fundamentally 
improve quality by, for example, requiring annual inspections and 
setting minimum pre-service and on-going training requirements for 
providers.
    <bullet> Moving toward requiring all providers paid through CCDBG 
funds to meet minimum licensing standards. The government requires 
States to regulate child care, but in practice unlicensed providers 
have become an important part of the subsidy system in a number of 
States, accounting for 1 in 5 children served overall.\15\ This trend 
has arisen because of the lack of supply of licensed care in 
underserved areas, the prevalence of shift work and non-traditional 
hours, and other factors. Changing the trend is a long-term goal that 
will require significant and targeted additional resources and 
strategies to address its causes. One first step is to require States 
to address in their block grant plans how they are aligning policies 
and reimbursements to support this goal.
---------------------------------------------------------------------------
    \15\ Office of Child Care, ``FFY 2009 CCDF Data Tables (Preliminary 
Estimates),'' Table 4--Percent of Children Served in Regulated Settings 
vs. Settings Legally Operating without Regulation. Available online at 
http://www.acf.hhs.gov/programs/ccb/data/ccdf_data/09acf800
_preliminary/table4.htm.
---------------------------------------------------------------------------
    <bullet> Establishing payment policies that mirror generally 
accepted payment practices providers use with private paying parents 
(those not receiving CCDBG assistance). For example, parents typically 
pay to enroll their child in a child care program and if their child 
misses a day their tuition isn't reduced. The program provider has to 
pay staff and other costs regardless. However, in many State subsidy 
programs providers are paid based on attendance, with a complicated 
process of downward adjustment in reimbursements for absent days. Steps 
such as this one would harmonize CCDBG's interface with the child care 
market, reduce distinctions between children based on their 
participation in the subsidy program, and encourage more licensed 
providers to participate in State child care assistance programs.
    Each of these improvements and the others we're discussing today 
promises improvements in the quality of care accessible to children of 
low-income working families. Each comes with a cost. Pursuing any of 
these reforms without adequate funding will mean either the anticipated 
improvement in quality will not materialize, or that fewer children 
will be served through CCDBG and working parents will lose access to 
care, to that economic lifeline so critical for families, communities, 
and our Nation. We cannot afford either of these options.
    Thank you for the opportunity to discuss these issues with you 
today.

    Senator Mikulski. That's very meaty. Thank you very much, 
doctor.
    Dr. Bryant.

    STATEMENT OF DONNA M. BRYANT, Ph.D., SENIOR SCIENTIST, 
 UNIVERSITY OF NORTH CAROLINA FPG CHILD DEVELOPMENT INSTITUTE, 
                        CHAPEL HILL, NC

    Ms. Bryant. Thank you, Senator Mikulski, Senator Burr, 
Senator Franken, and Senator Blumenthal, for inviting me to 
speak with your committee about what research tells us about 
child care quality and the implications for CCDBG. I feel like 
I'm a researcher sandwiched here between two practitioners and 
policymakers, and I get to speak for just a little bit about 
what the data tell us.
    I have four points to share with you. First, high-quality 
early learning matters to young children. You previously have 
heard evidence on this. You heard evidence about the famous 
early studies and heard evidence about the cost effectiveness. 
But we have a wealth of studies in early child care that show 
that the quality of children's care affects, short-term and 
long-term, their language, cognitive, and social outcomes. We 
also have evidence that quality has a stronger effect for low-
income children and at-risk children, the very children served 
by CCDBG.
    My second point is that we researchers, and I think the 
policymakers and practitioners have agreed with this, that we 
have a broad definition of what constitutes quality, we know 
how to measure it, and we know the precursors of quality. They 
include things such as better child care ratios, lower group 
size, better preparation for teachers, teacher beliefs and 
motivation also make a difference, professional development, 
good supervision, and wages. If I really want to improve one 
early childhood program, I'd pay attention to one or more of 
these variables and put them in place.
    But what if you wanted to improve lots of programs? Well, 
my third point is that communities and States have been our 
experimental laboratory for the last 20 years, developing and 
implementing programs that are based on these predictors of 
quality, programs that try to improve large numbers of child 
care. These include salary supplement programs that try to 
reduce turnover, scholarships for teachers to obtain more 
education, and a variety of on-site professional development 
programs that are sometimes called consulting or coaching or 
mentoring or TA. Don't get into an argument with people about 
what they want to call their program, I have discovered, but 
these are programs where one-on-one help is provided, 
individualized help is provided to child care teachers and 
family child care providers. Many of these programs have been 
developed, and many have been proven to work, but no single 
intervention will help a State improve quality across large 
numbers of programs. So some States, like my own, have 
undertaken coordinated child care quality improvement programs 
like Smart Start.
    Another comprehensive quality improvement effort recently, 
in the last 15 or 20 years, has been the development, as Eric 
said, in half the States of quality rating and improvement 
systems, QRIS's. These are tiered systems of quality that build 
the capacity for quality and reward programs for achieving 
accountable higher levels. Usually they're called Star 
programs, 3-star programs or 4-star or 5-star programs. I 
believe that these programs set the stage for additional 
Federal efforts.
    CCDBG already commits to quality through the mandatory 4 
percent set-aside, which has affected quality. But you asked 
how you could do more. I believe there are a number of ways you 
could make quality the baseline, as opposed to an add-on, in 
CCDBG. It could include policies to encourage States to develop 
their QRIS programs, and for those that already have QRIS, to 
increase participation in the QRIS program.
    You could require States to evaluate their funded quality 
improvement programs to assure they are meeting their goals. 
Payment levels for children and child care subsidy could be 
tied to the tier of quality that the child is attending.
    Turnover could be reduced, as Eric mentioned, and I know 
that Charlotte will talk about this. Turnover could be reduced 
by having longer periods of eligibility. CCDBG could encourage 
collaboration in pursuit of quality across many of the auspices 
of care, child care, Head Start and pre-K, by asking States to 
report through these reporting mechanisms do you have common 
linkages across your standards, across your quality improvement 
programs. So you could try through reporting to make States 
focus on it.
    In short, quality for children from low-income families 
could become a more central goal of CCDBG. I'm quite impressed 
by a study that came out last year showing that over 1,000 
children in almost 700 pre-K programs that children from low-
income families make no gains in programs of low quality, no 
cognitive language or social/emotional development gains over 
the course of a year spent in low-quality care. They do make 
gains, however, at the high end of quality, and the higher the 
quality, the more gain the child makes. I think all low-income 
parents should be able to obtain a subsidy that lets their 
child enroll in one of these higher-quality programs.
    Thank you for letting me speak today.
    [The prepared statement of Ms. Bryant follows:]

              Prepared Statement of Donna M. Bryant, Ph.D.

                                SUMMARY

    Extensive evidence shows that the quality of a child's early care 
and education experiences influence the child's language, cognitive and 
social outcomes, effects that are more pronounced for children of low-
income families. We have broad agreement about what constitutes 
``quality'' and we know how to measure it.
    Improving quality is a different matter. Predictors of quality 
include child-teacher ratios, group size, teacher beliefs and 
motivation, professional development and training, good supervision, 
and wages; the evidence on teacher education is not as clear-cut--as in 
K-12, the content and quality of professional preparation and ongoing 
professional development seem to be most important.
    Based on these predictors, many programs have been developed to 
improve quality, including salary supplements to reduce turnover; 
scholarships for teachers to obtain more education; and on-site 
professional development through consultation, coaching, mentoring, or 
technical assistance. No single intervention or approach will help a 
State improve quality across large numbers of early education programs, 
so some States have implemented more comprehensive, coordinated 
interventions (e.g., NC's Smart Start). The most promising and 
comprehensive quality improvement effort has been the development in 
about half the States of Quality Rating and Improvement Systems (QRIS), 
tiered systems of quality that build the capacity for quality and 
reward programs for achieving accountable higher levels of quality.
    The existing Child Care and Development Block Grant (CCDBG) 
commitment to quality via the 4 percent minimum set-aside requirement 
could be increased by several efforts that would make quality the floor 
of CCDBG. This could be accomplished by encouraging States to develop 
QRIS and motivating those that have QRIS to increase QRIS 
participation; to evaluate their funded quality improvement programs to 
assure that they are meeting goals; to tie payment levels for children 
in child care subsidy to the tier of quality their program provides; 
and to reduce child turnover by establishing longer periods for 
eligibility determination (i.e., a year). CCDBG could encourage 
collaboration in pursuit of quality across child care sectors by 
requiring States to report on whether they have common standards across 
auspices (child care, Head Start, pre-K) and whether their quality 
support efforts are aligned with their standards.
    In short, quality for children from low-income families could 
become a more central goal of CCDBG, rather than a secondary or 
tertiary goal. Research shows that below certain thresholds of quality, 
children from low-income families make no cognitive, language or social 
gains, but they do make gains at the higher levels of quality. Low-
income parents should be able to obtain a subsidy that would pay for 
their children to enroll in care that is not only safe but that helps 
them grow and develop.
                                 ______
                                 
    Thank you Senator Mikulski, Senator Burr and other members of the 
committee for inviting me to speak today on what research tells us 
about child care quality and the implications for policies in the Child 
Care and Development Block Grant. My name is Donna Bryant and I am a 
Senior Scientist at the Frank Porter Graham (FPG) Child Development 
Institute at the University of North Carolina at Chapel Hill.
    When I started at FPG 33 years ago, the Abecedarian children were 
ages 1-6 and they filled the classrooms in our building. I worked on 
the studies that came after Abecedarian--studies of home visiting, Head 
Start, and public pre-k; and evaluations of North Carolina's 
comprehensive Smart Start early childhood program and several States' 
child care Quality Rating and Improvement Systems (QRIS). My current 
work is to help evaluate a network of 12 very high-quality early 
childhood schools around the country called Educare.
    Today I have four points to share with you. First, quality early 
learning matters to young children. Second, we can define what we mean 
by quality and we know many of the factors that lead to it. Third, 
States have been experimenting with a variety of large-scale quality 
improvement initiatives and have set the stage, especially with Quality 
Rating and Improvement Systems (QRIS), for additional Federal efforts. 
And fourth, as you fulfill your charge to consider policy options 
within the Child Care and Development Block Grant, there are ways to 
integrate quality as part of the baseline, rather than an add-on. These 
ways could build on current public policy work in the States and our 
science of early development.

                 I. QUALITY MATTERS FOR YOUNG CHILDREN

    At previous hearings this subcommittee has heard about the 
important difference that receiving high-quality early care and 
educational experiences can make in the lives of all children and 
especially in the lives of children from low-income families. The 
Abecedarian Project and the Perry Preschool Project showed that high-
quality child care experiences yield good cognitive and social outcomes 
for children from low-income families, outcomes that translate into 
life-long savings in terms of increased education and employment and 
decreased criminal activities (Campbell, et al., 2002; Schweinhart, et 
al., 2005). These pioneering studies have been followed by dozens of 
other studies of early childhood programs that were of much larger 
scale than Abecedarian and Perry--programs for children from low-income 
families such as Early Head Start, Head Start, and public pre-k, as 
well as community-based child care and nursery school programs for 
children from families with all levels of income. Extensive evidence 
links the quality of these types of child care with children's academic 
and social development (Lamb, 1998; Vandell, 2004), although the 
effects are typically not as strong as Abecedarian and Perry because 
the programs are generally not as good. In addition, many studies show 
that children from low-income families make even greater gains than 
non-poor children in community care (e.g. Burchinal, et al., 2000; 
Peisner-Feinberg, et al., 2001) and pre-kindergartens (Gormley, et al., 
2005).
    The conclusion from these studies is that better programs lead to 
better outcomes for children, especially for children from low-income 
families.

            II. WHAT IS QUALITY AND WHAT ARE ITS PRECURSORS?

    ``Quality'' is a broad but commonly used term that encompasses many 
inter-
related components of a good child care and early learning experience 
for infants, toddlers, or preschoolers--learning and developing in a 
stimulating and safe environment with an interesting variety of 
materials and with teachers who frequently interact with them with 
positive, responsive language and intentionally teach them new words, 
concepts and skills throughout the day. Teachers should be covering 
language, early numeracy, science, social studies, and be especially 
attuned to every opportunity to promote socio-emotional and behavioral 
development.
    We have several widely-used observational measures of quality, all 
of them known by acronyms: the CIS (Caregiver Interaction Scale, 
Arnett, 1989), the CLASS (Classroom Assessment Scoring System, Pianta, 
2007), the ECERS-R (Early Childhood Environment Rating Scale-Revised, 
Harms, 1998), the ITERS-R (Infant-Toddler Environment Rating Scale-
Revised, Harms, 2003), and the PQA (Program Quality Assessment, High/
Scope, 2003). There are even more. Trained researchers can observe a 
classroom with these scales and arrive at a ``quality'' score. We know 
from research that these measures predict children's cognitive, 
language and social outcomes. Even after we take into account the many 
other factors that we know influence a child's development, such as 
parents' education, family income, and mother's age (teen mom), their 
child care quality helps predict their outcomes.
    Given that we know how to measure quality, how do we increase our 
numbers of higher quality programs? First, one needs to know the 
research on predictors of quality, summarized recently by Peisner-
Feinberg and Yazejian (2010). The quality predictors are: better 
teacher-child ratios (e.g., 1 teacher/4 babies rather than 1/6) and 
smaller class size (e.g., 16 preschoolers rather than 20), although 
class size is not as important if the ratio is good; strong 
professional preparation and ongoing development (strong pre-service 
professional preparation and annual professional development in areas 
appropriate to the age-group they are teaching); good supervision and 
support from the director, higher wages, and low teacher turnover.
    If I were a director and could only do one thing, I would say that 
it is to hire the right people, but there is no screening test to help 
a director pick out the best people. Research shows that teacher 
beliefs and motivation influence the quality of child care. Some 
studies show that more education is related to quality, but more recent 
studies do not. One explanation for these contradictory findings--which 
are comparable to what has been found in K-12 education--may be that 
educational attainment is part of a complex system and cannot be 
reduced to a single variable (BA/no BA) (Peisner-Feinberg & Yazejian, 
2010).
    The educational attainment puzzle--the lack of a clear prediction 
of education level to quality--means that degrees and credentials alone 
are not sufficient to achieve quality. It is likely that the content of 
the education matters, as well as the context in which it was obtained. 
Child development is complex; strategies for teaching infants, toddlers 
and preschoolers are different and many children need individualized 
attention. A teacher needs to know how to observe and assess to best 
meet each child's needs. Partnering with parents assures a stronger 
mutual focus on the child's development and learning. This set of 
teaching behaviors is what is needed. A director's most important job 
is to find and hire teachers and assistant teachers who can do these 
things.
    Even though there is not a clear recipe to follow to achieve 
quality, research has shown us many of the ingredients. We also know 
that thousands of directors across the country run great programs for 
young children (for example, the Educare programs that I currently work 
with) and that new directors can take a mediocre program and turn it 
around. This process is facilitated if the program is in a region or a 
State that has a coordinated system for assisting, recognizing and 
rewarding quality improvement.

            III. STATE EFFORTS TO IMPROVE CHILD CARE QUALITY

    No single intervention or approach will help a State improve 
quality across large numbers of early childhood education programs. 
However, let me describe for you the traditional method of increasing 
quality and then outline for you some areas where we have seen 
creativity on the part of States that have decided to focus on quality.

Regulation
    States typically regulate child care facilities. A blunt method--
but an incomplete one--is for a State to require more stringent 
structural characteristics for child care, based on the research I 
cited earlier. A State can undertake improvements in areas such as the 
regulations about ratios of teachers/children and hours and types of 
teacher training. Each of these may bear some relation to child care 
quality, and we have known for quite awhile that States that have more 
stringent structural regulations do have higher observed quality in 
classrooms (CQO Study Team, 1995). However, these types of regulatory 
improvements alone will not likely get a State where it wants to be in 
terms of quality.

Systematic Quality Improvement Initiatives
    In addition to regulations that apply to all child care programs, 
beginning in the 1990s States began to implement a variety of quality 
improvement initiatives that were based on the research linking 
specific factors to child care quality, initiatives that were more 
focused on quality. These early initiatives tended to focus on just one 
part of the quality equation. They did not necessarily try to change 
the underlying problem and they were not comprehensive. For example, 
State quality initiatives offered child care teachers scholarships in 
order to increase their education or implemented supplementary 
compensation and benefits programs in order to reduce staff turnover. 
My State, North Carolina, was an early innovator, so I will describe a 
few of its initiatives and the research findings.

Programs to Increase Education
    The T.E.A.C.H. Early Childhood program (Teacher Education and 
Compensation Helps) began in North Carolina and is now implemented in 
26 States. T.E.A.C.H. provides scholarships to assist child care 
teachers, assistant teachers, and leaders with the costs of attending 
college including tuition, books, travel, and work release time. 
Participants agree to continue their employment for a specified time 
and receive a bonus or pay increase when their educational goals are 
met. A 2009 survey of T.E.A.C.H. States reported turnover of 11 
percent or less (CCSA, 2010), a rate far lower than the national rate 
of 30 percent (Whitebook, et al., 2001) and even better than the public 
school teacher turnover rate which is 17 percent nationally (NCTAF, 
2006).

Professional Development Through Consultation, Coaching, Mentoring, and 
        Technical Assistance (TA)
    States also have recognized the value of site-based professional 
development and program quality improvement strategies, variously 
called consultation, coaching, mentoring, or TA. This help is provided 
by individuals with a wide variety of qualifications and competencies, 
and the State child care agency--which may use Federal as well as State 
child care dollars to finance this work--has discretion to set 
appropriate standards (or not) for this type of strategy. These 
consultants focus on a variety of content and visit their clients 
anywhere from just a few on-site visits to much more frequently. The 
majority of these programs use a classroom observational tool, followed 
by one-on-one consultation visits with the teacher and/or director to 
discuss and help with areas of needed improvement. In a recent study 
with colleagues in 5 States, we randomly assigned 101 consultants from 
24 agencies to use a particular model of consultation or to use their 
agencies' typical approach to consultation. We found that the child 
care teachers helped by these consultants made significant gains in 
their classroom quality regardless of the approach used by the 
consultant (Bryant, et al., 2009). The gains were significant, but 
modest.

Professional Development/Training Plus Consultation
    Other studies have combined training plus consultation to improve 
the quality of Head Start classrooms (Farmer-Dougan, et al., 1999; 
Peisner-Feinberg, 1998) as well as improvements in specific content 
areas such as the teaching of math (Clements & Sarama, 2008) or 
literacy (Smith, et al., 2008). My Teaching Partner is an innovative 
web-based consultation intervention developed by Bob Pianta and 
colleagues (Pianta, et al., 2008) that gives teachers access to video 
clips of high-quality teaching and web-based consultation that provides 
ongoing feedback to teachers through a protocol that focuses on 
specific dimension of the CLASS observation measure. In random studies 
of these interventions, the group of teachers that received the special 
training and consultation made significant gains on the quality 
measures used in the studies. The gains were typically of the same 
magnitude as in our study of in-person consultation--statistically 
significant but not huge.
    My summary of the widely used consultation approach to improving 
early childhood quality is that it is not a silver bullet, but one of 
the better ones we have because it begins where the teacher is, builds 
on strengths, and can address weaknesses. Consultation should be based 
on research; grounded in observation; tied to early learning, program, 
and professional development standards; individualized for the client, 
and given time to work. We need to be realistic about the amount of 
change to expect from consultation, but indeed quality improvements can 
be made.

Comprehensive Statewide Initiatives
    Some States have recognized the valid but piecemeal approaches 
described above cannot have the type of systemic impact that they are 
seeking for improved quality and outcomes for young children, 
particularly their low-income and at-risk children. As a result, some 
States have developed organized systems of early childhood programs.
    North Carolina pioneered a comprehensive approach to early 
childhood health and development. Beginning in 1993, NC's Smart Start 
initiative created a unified approach to governance that involved State 
and regional leadership and accountability, and started to work more 
systematically to address improved quality in early learning. A variety 
of efforts received funding, and the State meaningfully increased its 
State contribution on top of the Federal CCDBG funds. All of the 
efforts I described above were included and, in addition, because of 
the broad-based understanding of child development, home visiting and 
health interventions were also part of this comprehensive approach. 
Over half the funds were devoted to child care quality and access. Four 
statewide assessments of early childhood classroom quality from 1994 to 
2001 showed significantly improved quality over time (Bryant, Maxwell, 
& Burchinal, 1999; Bryant, Bernier, Peisner-Feinberg, & Maxwell, 2002). 
Although the Smart Start evaluation showed that programs participating 
in more of the quality enhancement opportunities made greater gains on 
quality measures, particular interventions that made the most 
difference in quality could not be identified. [The Smart Start 
evaluation also positively linked higher classroom quality to 
preschoolers' receptive language, literacy, math, and social skills. 
(Bryant, Maxwell, Poe, & Taylor 2003)].

QRIS As the Framework for Quality
    The last decade has seen the development of a very promising State 
strategy to improve child care quality--statewide Quality Rating and 
Improvement Systems (QRIS). A QRIS is a systematic approach ``to 
assess, improve, and communicate the level of quality in early care and 
education programs'' (Mitchell, 2005, p. 4) that can bring together a 
fragmented set of resources to build an aligned and comprehensive 
system of early care and education. Oklahoma (1998) and North Carolina 
(1999) were the first and now 25 States have a QRIS with all five 
important elements used to create stepping stones to increasingly 
higher levels of quality. These components are: (1) quality standards 
(child, program, practitioner); (2) accountability measures to monitor 
the standards; (3) outreach and support to programs and practitioners; 
(4) financial incentives; and (5) dissemination of ratings and 
information to parents to raise awareness and market demand for 
quality.
    A QRIS develops levels or steps between basic licensing quality and 
high quality, usually with 3, 4 or 5 steps or levels. These steps then 
become the structure for aligning funding to programs by a variety of 
important methods, including increasing child care subsidies (with 
rates increasing at higher quality levels); requiring all programs 
participating in child care subsidy to participate in the QRIS; merit 
or grant awards to programs as they achieve higher levels of quality; 
support awards to get to another level of quality; priority access to 
professional development support such as T.E.A.C.H. and coaching, 
mentoring and professional development. Even though most State QRIS 
systems are relatively new, a few studies already have shown that 
quality improvement has occurred over time (summarized in Tout & 
Maxwell, 2010).
    States are able to customize their QRIS to their own political and 
economic context. With a few exceptions, most States invite centers and 
FCC homes to participate voluntarily. States that have put relatively 
more resources into their QRIS can afford to hire independent observers 
to validate the quality of the programs at the higher levels; States 
with fewer resources rely on self-report or accept the reports of other 
validators (e.g. accepting NAEYC accreditation or a Head Start 
program's 3-year site-visit report). Some States offer significant 
financial rewards for attaining a higher star level while others offer 
much smaller amounts. States differentiate award levels based on the 
enrollment of at-risk children into the program (i.e. children from the 
subsidy program or those who have a developmental delay or disability). 
Many States increase the child care subsidy rates for children in 
programs with more stars, although the amounts differ. States may 
prioritize access to professional development and other quality 
improvement supports in order to assure an integrated approach to 
quality improvement.
    One study of these naturally occurring differences between States 
is underway, but more research on QRISs would lead to better 
understanding of how to weight various components in the system, how to 
better match quality improvement interventions to programs at different 
levels, and how to persuade all programs (especially those of low 
quality) to participate in the QRIS and receive quality improvement 
help. Certainly the focus on QRIS in the Early Learning Challenge will 
help push and refine this work.

QRISs, Early Learning Standards, and Professional Development Systems
    QRISs developed around the same time that the standards-based 
education movement began. All 50 States now have early learning 
standards for what preschoolers should know and be able to do, 
typically developed by departments of education (or wherever State pre-
k resides) (Scott-Little, et al., 2010). Thirty-two States now have 
infant/toddler standards, half developed by the department of education 
and half developed by the State's department of human services (Scott-
Little, et al., 2010). Simultaneously, many States developed early 
childhood professional development competencies, specifying the skills 
that people teaching young children should have. Community colleges, 
colleges and universities may or may not be required to teach these 
competencies. The QRIS systems have typically developed out of the 
departments of human resources/social services, where child care 
resides. The more sophisticated of these systems incorporate the early 
learning standards and the professional development competencies as 
part of the comprehensive vision. And then there are all of the Head 
Start and Early Head Start programs, which do not reside in education 
or health. As you can tell, many agencies are now involved in efforts 
to improve quality and their efforts would be more effective if they 
were better linked. This leads me to one of the questions you asked me 
to address.

               IV. WHAT CAN CCDBG DO TO IMPROVE QUALITY?

    In your invitation, you asked for my recommendations on how to 
improve child care quality and safety within the existing CCDBG 
program. Given its commitment to quality through the 4 percent minimum 
set-aside requirement, Federal policy has already affected quality, but 
it could do much more. The minimum amount of quality set-aside could be 
raised--many States are already using a higher percentage for quality. 
Given the importance of quality to the children served by the block 
grant, an alternative strategy could be to make quality the basic floor 
of the program through the following possible strategies. States could 
be required to use their quality funds on interventions that have been 
shown to work, such as QRIS, that influence teaching and learning 
practices and with research evidence that links the practices to 
children's outcomes. States could be required to link their payment 
levels for children in child care subsidy to participation in these 
efforts.
    Knowing that continuity is important for children, you could 
establish longer periods for eligibility determination (i.e., a year) 
so children are not evicted from child care as soon as a parent earns a 
bit too much. The data and reporting requirements should also be 
aligned. (I believe Charlotte Brantley will address these two 
recommendations more thoroughly.) You could encourage those States 
without QRIS systems to develop them (as the Race to the Top/Early 
Learning Challenge Fund is doing). In short, you can embed pay for 
performance more strongly within the CCDBG, based on objective 
standards-based practices and their implementation. Quality for low-
income children and families could be a more central goal, rather than 
a tertiary goal.
    Change in the CCDBG should bring with it changes in Federal 
leadership for the other early childhood programs as well. We need to 
work harder at unifying the many early learning programs we fund. This 
will happen within those States fortunate enough to receive the 
Challenge funds, but that will leave out many States. I also hope that 
when the Federal Government provides CCDBG, IDEA, and Head Start funds, 
the States and Head Start programs would be asked to report on whether 
they have common standards across programs, whether the system of 
teacher and provider supports is aligned with the quality standards, 
and whether it applies to all sectors of the early childhood system 
(child care, Head Start, pre-K, early intervention/preschool special 
education). If we measure collaboration, we will get more of it. This 
should help better leverage resources and most significantly, best 
serve the target population of high-risk children that these programs 
are designed to serve.
    In closing, I want to be clear about why we should use public 
resources for improved quality for our children. Right now, CCDBG and 
the States' child care systems do not serve all of the at-risk children 
who qualify and we don't provide quality care to all of those we 
currently do serve. This situation seems to legitimize a discussion of 
trading off higher quality for more access. This is a choice that would 
bewilder Solomon and we should not be asked to choose.
    Let me describe a study that is relevant to this issue. Quality 
programs make a difference in the learning and social skills of all 
children, but for children from poor families, they make even more 
difference at the higher ranges of quality. Last year, my FPG colleague 
Peg Burchinal led a study of over 1,000 public pre-k children who all 
qualified for free or reduced price lunch, relating their language, 
math, and behavioral scores at the end of the school year to the 
quality of their classroom (Burchinal, et al., 2010). These children 
were in 670 preschool classrooms in 11 States. The study's purpose was 
to test whether there might be a minimal ``just-good-enough'' threshold 
of quality, above which the quality difference would not matter.
    Not only did these authors find NO evidence of a just-good-enough 
threshold of quality, they found the opposite: for these poor children, 
below certain thresholds there were NO gains and the association 
between quality and children's gains was stronger at the higher quality 
levels than at the lower levels. Poor children, those who get the CCDBG 
subsidies, may get no social or academic benefit from attending low-
quality care. Low-income parents should be able to obtain a subsidy 
that would pay for their children to enroll in care that is not only 
safe but that helps them grow and develop.
    The Federal framework for the CCDBG does matter and there are 
approaches you can take to put more resources into quality improvement. 
I hope that we can move towards both goals--greater accessibility and 
higher quality--at the same time. But make no mistake about it, we will 
not realize a quality agenda if we don't find a better way to infuse 
quality into the floor of the CCDBG.

                               References

Abbott-Shim, M., Lambert, R., & McCarty, F. (2000). Structural model of 
    Head Start classroom quality. Early Childhood Research Quarterly, 
    15, 115-34.
Arnett, J. (1989). Caregivers in day-care centers: Does training 
    matter? Journal of Applied Developmental Psychology, 10, 541-52.
Bryant, D., Maxwell, K., Poe, M., & Taylor, K. (2003). Smart Start and 
    Preschool Child Care in NC: Change Over Time and Relation to 
    Children's Readiness. Chapel Hill, NC: FPG Child Development 
    Institute. Available at: http://www.fpg.unc
    .edu/smartstart/.
Bryant, D., Bernier, K., Peisner-Feinberg, E., & Maxwell, K. (May 
    2002). Smart Start and Child Care in North Carolina: Effects on 
    Quality and Changes over Time. Chapel Hill, NC: FPG Child 
    Development Institute.
Bryant, D., Wesley, P., Burchinal, P, et al., (2009). The QUINCE-PFI 
    Study: An Evaluation of a Promising Model for Child Care Provider 
    Training. Final Report. The University of North Carolina, FPG Child 
    Development Institute. Available at: http://
    www.childcareresearch.org/childcare/resources/19474?q=QUINCE.
Burchinal, M., Peisner-Feinberg, E., Bryant, D.M., & Clifford, R. 
    (2000). Children's social and cognitive development and child care 
    quality: Testing for differential associations related to poverty, 
    gender, or ethnicity. Applied Developmental Science, 4, 149-65.
Burchinal, M., Vandergrift, N., Pianta, R. & Mashburn, A. (2010). 
    Threshold analysis of association between child care quality and 
    child outcomes for low-income children in pre-kindergarten 
    programs. Early Childhood Research Quarterly, 25, 166-76.
Campbell, F.A., Ramey, C.T., Pungello, E., Sparling, J., & Miller-
    Johnson, S. (2002). Early childhood education: Young adult outcomes 
    from the Abecedarian project. Applied Developmental Science, 6, 42-
    57.
Clements, D.H., & Sarama, J. (2008). Experimental evaluation of the 
    effects of a 
    research-based preschool mathematics curriculum. American 
    Educational Research Journal, 45, 443-94.
CQO Study Team. (1995). Cost, Quality, and Child Outcomes in Child Care 
    Centers [Technical Report], Denver: Department of Economics, Center 
    for Research in Economic and Social Policy, University of Colorado 
    at Denver.
CCSA, 2010. Turning Back the Tide of Teacher Turnover. Available at: 
    http://www.childcareservices.org/_downloads/
    FactSheet_Turnover_02_10.pdf.
Early, D., Bryant, D., Pianta, R., Clifford, R., Burchinal, M., 
    Ritchie, S., et al., (2006). Are teachers' education, major, and 
    credentials related to classroom quality and children's academic 
    gains in pre-kindergarten? Early Childhood Research Quarterly, 21, 
    174-95.
Farmer-Dougan, V.A., Viechtbauer, W., & French, T. (1999). Peer-
    prompted social skills: The role of teacher consultation in student 
    success. Educational Psychology, 19, 207-19.
Gormley, W.T., Gayer, T., Phillips, D., & Dawson, B. (2005). The 
    effects of universal pre-k on cognitive development. Developmental 
    Psychology, 41(6), 872-84.
Harms, T., Clifford, R., & Cryer, D. (1998). Early Childhood 
    Environment Rating Scale-Revised. NYC: Teachers College Press.
Harms, T., Cryer, D., & Clifford, R. (2003). Infant/Toddler Environment 
    Rating Scale-Revised. NYC: Teachers College Press.
High/Scope Educational Research Foundation. (2003). Preschool Program 
    Quality Assessment, 2nd Edition (PQA) Administration Manual. High/
    Scope Press: Ypsilanti, MI.
Lamb, M. (1998). Nonparental child care: Context, quality, and 
    correlates. In I.E. Sigel & K.A. Renninger (Volume Eds.), Handbook 
    of child psychology. (Vol. 4)(pp. 950-1016). Child Psychology in 
    Practice. NY: Wiley.
Mashburn, A.J., Pianta, R.C., Hamre, B.K., Downer, J.T., Barbarin, 
    O.A., Bryant, D., et al., (2008). Measures of classroom quality in 
    prekindergarten and children's development of academic, language, 
    and social skills. Child Development, 79, 743-49.
Mitchell, A.W. (2005). Stair steps to quality: A guide for States and 
    communities developing quality rating systems for early care and 
    education. Alexandria, VA: United Way of America, Success by 6.
National Commission on Teaching and America's Future. (2006) Teacher 
    Dropouts Cost Nation More Than $7 Billion Annually. Available at: 
    http://nctaf.org/resources/news/press_releases/CTT.htm.
Peisner-Feinberg, E.S., Burchinal, M.R., Clifford, R.M., Culkin, M.L., 
    Howes, C., Kagan, S.L., & Yazejian, N. (2001). The relation of 
    preschool child-care quality to children's cognitive and social 
    developmental trajectories through second grade. Child Development, 
    72(5), 1534-53.
Peisner-Feinberg, E.S. & Yazejian, N. (2010). Research on program 
    quality: The evidence base. In P.W. Wesley & V. Buysse (Eds.), The 
    quest for quality, (pp. 21-46). Baltimore: Brookes.
Pianta, R.C., La Paro, K.M., Hamre, B.K. (2007). Classroom Assessment 
    Scoring System--CLASS. Baltimore: Brookes.
Pianta, R.C., Mashburn, A.J., Downer, J.T., Hamre, B., & Justice, L.M. 
    (2008). Effects of web-mediated PD resources on teacher-child 
    interactions in pre-kindergarten classrooms. Early Childhood 
    Research Quarterly, 23(4), 431-51.
Schweinhart, L.J., Montie, J., Xiang, Z., Barnett, W.S., Belfield, C., 
    & Nores, M. (2005). The High/Scope Perry Preschool Study through 
    age 40. Ypsilanti, MI: High/Scope Press.
Scott-Little, C., Cassidy, D.J., Lower, J.K., & Ellen, S.J. (2010). 
    Early learning standards and quality improvement initiatives: A 
    systemic approach to supporting children's learning and 
    development. In P.W. Wesley & V. Buysse (Eds.), The quest for 
    quality, (pp. 69-90). Baltimore: Brookes.
Stipek, D.J., & Byler, P. (1997). Early childhood education teachers: 
    Do they practice what they preach? Early Childhood Research 
    Quarterly, 12, 305-25.
Tout, K., & Maxwell, K.L. (2010). Quality rating and improvement 
    systems: Achieving the promise for programs, parents, children, and 
    early childhood systems. In P.W. Wesley & V. Buysse (Eds.), The 
    quest for quality, (pp. 91-112). Baltimore: Brookes.
Vandell, D. (2004). Early child care: The known and the unknown. 
    Merrill-Palmer Quarterly, 50, 387-414.

    Senator Mikulski. Thank you, Dr. Bryant. That was part of 
exactly what we wanted to hear, which is data-driven and 
evidence-based.
    Ms. Brantley, we're going to turn to you, and I know I 
called you Dr. Brantley. I think you deserve one. If anybody 
hasn't given you an honorary doctorate, I'd like to do that 
today.

    STATEMENT OF CHARLOTTE M. BRANTLEY, PRESIDENT AND CHIEF 
     EXECUTIVE OFFICER, CLAYTON EARLY LEARNING, DENVER, CO

    Ms. Brantley. Thank you. I'll take the honorary doctorate. 
Thank you very much.
    Well, good morning, Senator Mikulski, Senator Burr, Senator 
Franken, and Senator Blumenthal. I very much appreciate the 
invitation to come today to address this issue that has 
certainly been near and dear to my heart and has actually 
helped frame a good portion of my career in the early childhood 
field.
    I had the opportunity to actually teach at my alma mater at 
the University of Texas for a while in the Early Childhood 
Department there, and then went on to work for the State 
administration of the CCDBG. In fact, I was a State 
administrator when the CCDBG was first enacted in the early 
1990s and went through the implementation process of that in 
the context of welfare reform as the 1990s moved forward, and 
then had the opportunity to lead what was at that time known as 
the Child Care Bureau. Now it is the Office of Child Care. I 
spent about 2\1/2\ years doing work in the Child Care Bureau, 
so I got to see it from the Federal administration side, and 
now have the incredible pleasure and opportunity to be able to 
see this program in action every single day in a local program 
in the city of Denver that you heard Senator Bennet mention.
    We are a Head Start Center of Excellence. We are also one 
of the 12 operational Educare Schools now in the Educare 
Network of Schools that is growing across the country. We're 
all Head Start and Early Head Start at our core, and also 
provide very high quality results-driven, data-driven, as Donna 
knows. Donna is the principal investigator on the nationwide 
implementation evaluation of the Educare model.
    I have seen the CCDBG, as I mentioned, kind of up one side 
and down the other since its inception, and many of the 
comments that my colleagues here, whom I've also worked with on 
these issues for a number of years, these are issues that are 
not new. We've been talking about these issues for a very long 
time, and I am very, very pleased to see this coming to a level 
of this kind of a hearing where we can really talk seriously 
about what we might be able to do at this point. I think we 
know what to do. I think our difficulty is often how do we go 
about doing it.
    From my perspective, the CCDBG is often the glue that holds 
multiple funding streams together. As States and program 
providers seek to offer comprehensive services that address 
child development outcomes, as well as supports for working 
parents, in a program like mine at the Clayton Educare School, 
we're using the Child Care and Development Block Grant as that 
glue. We have Head Start. We have Early Head Start. You heard 
Senator Bennet mention the Denver Preschool Program. We also 
use the Colorado Preschool Program to fund the services that we 
offer.
    And yet you walk into the building and you cannot tell 
which child or which service or which teacher or which 
classroom is being funded by which one of those funding 
streams. You have to look at our auditable spreadsheets that 
are this thick and that wide and deep, our cost allocation 
plans to know what's happening there. It looks easy. I'm here 
to tell you that it's not to make it look that easy.
    I think that we have often put in place well-meaning but 
often disjointed program implementation policies and 
authorizations of programs that have inadvertently created 
barriers to delivering the quality services to those most in 
need. For example, in order to access a full working day of 
service that also addresses the child's developmental and 
educational needs, families must qualify for and providers must 
juggle multiple funding streams that do not always coincide in 
terms of eligibility criteria, in terms of the quality 
measurements and the standards, and in terms of the length of 
service.
    Providers of early childhood care and education that accept 
CCDBG child care subsidies face a constant threat of losing 
funding and children. The original focus of the program on 
supporting parents as they become engaged in work is critical 
to family self-sufficiency. However, with historically limited 
funding in the program, increased demand for the service, and 
increased wait lists in many States, again well-intentioned 
implementation policies have too often become the enemy of the 
good.
    In an effort to stretch the limited funding to serve as 
many as possible, we have set rates that do not reflect the 
true cost of quality and caused families and children to cycle 
on and off the program in relatively short bursts that neither 
support children's development nor their parents' long-term 
attachment to the workforce. The situation has only been 
exacerbated by the nature of program reports required of State 
administrators. These program reports tend to focus on the 
numbers served, not on how well they were served or what the 
outcomes might be either for the children or for the parents.
    In addition, while we have attempted to address the need 
for increased quality in services since the inception of this 
program, we have, quite frankly, not held ourselves accountable 
on any large scale for whether we have actually made a 
difference.
    So at your invitation, I am submitting the following 
recommend-
ations on ways the CCDBG can become a vehicle for improved 
quality in all child care settings and can further ensure 
continuity of care in evidence-based programs for our highest-
need children.
    To formalize in statute the program guidance that has been 
in place since 1999, addressing alignment of eligibility 
periods with Head Start or State-funded pre-kindergarten 
programs for children who are enrolled in both the CCDBG and 
one or the other of those programs.
    To require States to establish eligibility redetermination 
policies that support continuity of care for all children for a 
period of at least 12 months, including limited or no reporting 
changes in family income or work arrangements of the parents 
during the authorized period, as is already the case with the 
Head Start eligibility and with most State pre-kindergarten 
programs that are means tested.
    To encourage all States to build or continue to strengthen 
an existing tiered quality rating and improvement system such 
that all early childhood settings are included and incentivized 
to reach the higher levels of quality.
    To establish financial rewards for States that make steady 
progress in providing access to higher rated programs for 
higher needs children.
    In support of that one, to allow States greater flexibility 
in using contracts for CCDBG-funded slots with high-quality 
providers as measured by their quality rating improvement 
system by removing the requirement that each parent must always 
be offered a voucher in lieu of a contracted slot.
    To require States to recognize the actual costs of higher 
quality when establishing reimbursement rate structures for 
CCDBG funded slots.
    To require that if States choose to use the CCDBG funding 
for licensing and monitoring, particularly if it's new funding, 
that the work performed with the new funds are related directly 
to higher quality standards as measured by their quality rating 
improvement system.
    And finally, I would suggest that we continue to revise the 
State reporting requirements. I was quite heartened to see the 
changes that were put in place around reporting in the most 
recent version of the State planned pre-print for this program 
that is giving some additional guidance to States around the 
kinds of information that would be helpful for us to know at a 
national level and that would perhaps move the needle on 
quality.
    We should continue that process so that we begin to measure 
what really matters, including the number of CCDBG-funded 
children enrolled in higher-quality settings, the number of 
parents that remain employed, progress among providers in 
achieving the higher ratings within a State's QRIS, the 
alignment of standards within a State across all early 
childhood settings, and the progress of teachers in achieving 
higher levels of professional preparation.
    I think that the process that many States are going through 
right now to get themselves ready to submit their application 
for the Early Learning Challenge Fund grants is actually also a 
bright spot in what's going on right now in the environment. I 
think to some extent we're signaling a new era here. Even 
though very few States in all likelihood are going to receive 
grants under that funding stream, the process that States are 
going through, I'm playing a role in that in the Colorado State 
process and in touch with some other States and the processes 
that they're going through, the process alone is incredibly 
valuable to this field. It's requiring States to really bring 
together all of the players in the early childhood arena, not 
just the direct education providers but also the care 
providers, the family home providers--what are parents doing, 
what is the health community doing, what is the mental health 
community doing, what kind of family supports do we have in 
place--all culminating in children's school readiness and their 
success.
    It's helping to examine what kinds of things could, in 
fact, be done that perhaps might not even cost new money but 
might be new ways of approaching the work that we do, might be 
new ways of encouraging providers to become engaged, 
encouraging families to become engaged that may not be as 
expensive in the long run as we think they are. Not to say that 
we don't need additional money in this program; we absolutely 
do. I think we all know and accept that. I also, though, 
believe that the conversations that are happening are such that 
there are people at the tables who perhaps have not been there 
before who maybe have some resources that can be called upon. 
Thank you.
    [The prepared statement of Ms. Brantley follows:]

              Prepared Statement of Charlotte M. Brantley

                                SUMMARY

    Good morning Senator Mikulski, Senator Burr and members of the 
committee. Thank you for this opportunity to testify regarding 
``Examining Quality and Safety in Child Care: Giving Working Families 
Security, Confidence and Peace of Mind.'' I have been engaged in early 
childhood development and education throughout my career, and 
specifically involved in administering the Child Care and Development 
Block Grant (CCDBG) at the State, Federal and local program delivery 
levels.
    The CCDBG is often the ``glue'' that holds multiple funding streams 
together as States and program providers seek to offer comprehensive 
services that address child development outcomes as well as supports 
for working parents. However, the well-meaning but often disjointed way 
in which programs have been authorized and implemented has 
inadvertently created barriers to delivering quality service to those 
most in need. In order to access a full working day of service that 
also addresses the child's developmental and educational needs, 
families must qualify for and providers must juggle multiple funding 
streams that do not always coincide in terms of eligibility criteria 
and length of service.
    Providers of early childhood care and education that accept CCDBG 
child care subsidies face a constant threat of losing funding, and 
children. The original focus of the program on supporting parents as 
they become engaged in work is critical to family self-sufficiency. 
However, with historically limited funding in the program, increasing 
demand for the service and increased wait lists in many States, well-
intentioned implementation policies have too often become the enemy of 
the good. In an effort to stretch the limited funding to serve as many 
as possible, we have set rates that do not reflect the true cost of 
quality and caused families and children to cycle on and off the 
program in relatively short bursts that neither support children's 
development, nor their parents' long-term attachment to the workforce. 
The situation has only been exacerbated by the nature of program 
reports required of State administrators. In addition, while we have 
attempted to address the need for increased quality in services, we 
have not held ourselves accountable on a large scale for whether we 
have actually made a difference.
    At your invitation, I submit the following recommendations on ways 
the CCDBG can become a vehicle for improved quality in all child care 
settings and can further ensure continuity of care in evidence-based 
programs for our highest need children.

    1. Formalize in statute the program guidance in place since 1999 
addressing alignment of eligibility periods with Head Start or State or 
local funded prekindergarten for children enrolled in both CCDBG and 
one or both of the other programs.
    2. Require States to establish eligibility redetermination policies 
that support continuity of care for all children for a period of at 
least 12 months, including limited or no reporting of changes in family 
income or work arrangements of the parents during the authorized period 
(as is already the case with Head Start and most prekindergarten 
programs that are means tested).
    3. Encourage all States to build or continue to strengthen an 
existing tiered quality rating and improvement system such that all 
early childhood settings (child care, Head Start, and preschool) are 
included and incentivized to reach the higher levels of quality.
    4. Establish financial rewards for States that make steady progress 
in providing access to higher rated programs (as measured by QRIS) for 
higher needs children.
    5. In support of No. 4, allow States greater flexibility in using 
contracts for CCDBG slots with high quality providers (as measured by 
QRIS) by removing the requirement that each parent must be offered a 
voucher in lieu of a contracted slot.
    6. Require States to recognize the actual costs of higher quality 
when establishing reimbursement rate structures for CCDBG slots.
    7. Require that if States choose to use CCDBG funding for licensing 
and monitoring, the work performed with the funds is related directly 
to higher quality standards as measured by QRIS.
    8. Revise State reporting requirements so that we begin to measure 
what really matters, including the number of CCDBG-funded children 
enrolled in higher quality settings, the number of parents that remain 
employed, progress among providers in achieving the higher ratings 
within a State's QRIS, the alignment of standards within a State across 
all early childhood settings, and the progress of teachers in achieving 
higher levels of professional preparation.
                                 ______
                                 
    Good morning Senator Mikulski, Senator Burr and members of the 
committee. Thank you for this opportunity to testify regarding 
``Examining Quality and Safety in Child Care: Giving Working Families 
Security, Confidence and Peace of Mind.'' I have been engaged in early 
childhood development and education throughout my career, and 
specifically involved in administering the Child Care and Development 
Block Grant at the State, Federal and local program delivery levels. 
From the late 1980s through 1998 I was the State child care 
administrator in Texas, and then spent approximately 2\1/2\ years 
leading the Child Care Bureau (now Office of Child Care) within ACF. 
Currently, I am president and CEO of a large non-profit in Denver--
Clayton Early Learning--operating one of the Educare Schools. We also 
provide teacher preparation programs, curriculum design, and program 
evaluations. For a good part of my career I have worked on policies and 
administrative procedures related to maximizing the public investments 
our country makes in young children and their families through child 
care assistance, Head Start, and State and local prekindergarten 
programs. This experience includes working directly with State and 
Federal legislative bodies on bill language, drafting of State and 
Federal program rules and regulations, and program implementation at 
the local level. This background gives me a deep knowledge of both the 
day-to-day workings of the child care subsidies available to low-income 
parents through the Child Care and Development Block Grant (CCDBG), as 
well as an appreciation of the opportunities and challenges faced by 
State and local administrators and the families that access the 
program.
    The CCDBG is an essential thread in the overall fabric of early 
childhood education and developmental supports, along with Early Head 
Start and Head Start, State and local prekindergarten programs, and 
programs for children with identified special education needs. While it 
was authorized as a separate program in legislation, has a separate 
appropriation, and its own set of regulations, at the local program 
level it is often the ``glue'' that holds multiple funding streams 
together. For example, it can be used to extend the day and year for 
children enrolled in part day, part year Head Start and prekindergarten 
programs. However, unlike these other programs a child's eligibility 
for CCDBG funding is tied to the parent's engagement in work or 
training.
    As our country has grappled with a growing understanding of the 
importance of the earliest years in a child's development, the 
significance of early education to later academic achievement, and 
attempts to help low-income families achieve economic self-sufficiency, 
we have inadvertently created a jigsaw puzzle of programs and services, 
often with ill-fitting pieces. We talk about providing supports to 
children with ``high needs'', yet the needs of an individual child are 
often defined differently depending on the program or funding stream in 
which the child is enrolled. For example, a child from a low-income 
family is defined as needing comprehensive early education, family 
support and health/mental health services if he is enrolled in Head 
Start. The very same child is defined as only needing early education 
if enrolled in prekindergarten. And again, the very same child is 
defined as primarily needing safe child care during the hours his 
parent(s) is (are) working if he is enrolled in a CCDBG child care 
subsidy. Which of these programs the child is actually enrolled in is 
often the luck of the draw, and is highly dependent upon the funding 
source available at the time the low-income parent seeks a program, the 
parent's knowledge of the programs available in the community, the 
parent's work schedule, and the age of the child. As Louise Stoney and 
Anne Mitchell put it so well in their recent white paper entitled 
Toward Better Policy for Early Care and Education in the United States, 
``The US can no longer afford the inefficiency of making policy by 
funding stream.''
    This inefficiency is illustrated by a family, father David and sons 
Jeremy and Frank, currently enrolled in Clayton Educare. David has sole 
custody of his two young boys and was employed when they were first 
enrolled in our full-day, full-year Early Head Start and Head Start 
program. Access to the full-day, full-year option requires that the 
parent qualify for both Head Start and the child care subsidy program, 
as the Head Start per child funding only covers part-day, part-year. 
When first enrolled, as a toddler and young preschooler, the boys were 
very shy, did not speak much at all, and seldom engaged in play with 
the other children. After the first year, both boys were making great 
progress as noted by their teachers both anecdotally and through 
various norm referenced assessments. However, David then lost his job. 
He was given a period of job search by his child care assistance 
caseworker and found temporary work, but that soon also dried up. As he 
reached the end of his allowable weeks of job search for the child care 
subsidy, he faced losing the full-day full-year services for his boys. 
By stretching resources, our program was able to cover the funding gap 
for a few months over the summer so that Jeremy could continue in the 
program until transitioning to kindergarten this fall. The younger 
child, however, is now enrolled in just part-day, part-year for his 
final year prior to entering kindergarten next fall. In addition to a 
shorter day, this also means he is placed in a different classroom with 
new teachers and new peers. We are concerned that he may very well lose 
ground in this arrangement as the program ``dosage'' is simply not deep 
enough for our most-at-risk children, and the all-important continuity 
of care has been lost. We frankly also question the wisdom of now 
risking the public investment already made in this child by not 
allowing continued child care funding to support bringing him across 
the finish line. In addition, David is now limited to just 3 hours per 
day to continue his job search (while Frank is in the part-day Head 
Start program).
    Unfortunately, this story is not unique. Providers of early 
childhood care and education that accept child care subsidies face a 
constant threat of losing funding, and children. The original focus of 
the program on supporting parents as they become engaged in work is 
critical to family self-sufficiency. However, with historically limited 
funding in the program, increasing demand for the service and increased 
wait lists in many States, well-intentioned implementation policies 
have too often become the enemy of the good. In an effort to stretch 
the limited funding to serve as many as possible, we have caused 
families and children to cycle on and off the program in relatively 
short bursts that neither support children's development and school 
readiness, nor their parents' long-term attachment to the workforce. 
The situation has only been exacerbated by the nature of program 
reports required of State administrators. When the primary marker of 
success is the number served, a ``slot'' occupied in 1 year by two to 
three children is cause for celebration. How different would our 
policies and therefore our celebrations be if instead we were asked to 
report on the number served in programs with proven track records of 
preparing children for success in school, and on the number of parents 
that remained employed while their children were enrolled?
    In recognition of the critical need to address the quality of 
settings in which children receive child care services, the CCDBG, as 
you are aware, offers small amounts of funding in the form of set 
asides for a variety of initiatives including teacher professional 
development, licensing and monitoring, classroom and playground 
enhancements, resource and referral for parents and providers, quality 
rating and improvement systems, and initiatives specifically addressing 
care for infants and toddlers. However, to date we have not held 
ourselves accountable on a large scale for whether the funded 
initiatives have actually made a difference in either measurable 
quality of settings, or child and family outcomes. I frankly believe 
that we have been fearful of the repercussions if our efforts were 
found to be inadequate. And they may well be inadequate, not for lack 
of trying, but for lack of both sufficient funding and comprehensive 
approaches aimed at true systems level change.
    I am heartened by the recent revisions to the State plan preprint 
for the CCDBG as I believe they clearly signal a new era is upon us. 
The changes offer greater guidance to States on ways the funds can and 
perhaps should be used to create a stronger foundation for more child 
and family outcome focused administration of the program. I am also 
very excited about the opportunity for States to compete for the Early 
Learning Challenge Fund grants. While to some extent it seems that we 
are all trying to front load everything we've been dreaming of into 
this one grant, I do believe the very process of applying is extremely 
valuable to States, even though only a limited number will receive 
funding. The guidelines for the grant application are causing strong 
examination of where States are, and again signal a new era of 
accountability for systems change that will help ensure that more high-
need children are in higher quality settings based on evidence of what 
can really make a difference.
    It is also exciting to witness additional efforts on the part of 
the Federal Government to address long standing issues regarding the 
often fragmented approaches to school readiness and program monitoring 
across multiple funding streams and programs. Colorado is participating 
in this effort as one of the school readiness learning lab States. As a 
provider of a program of exceptional quality and proven child outcomes, 
I welcome the exploration of potential joint monitoring among funding 
stream administrators and a deep look at how school readiness is 
supported by multiple programs. At Clayton Educare, while we use 
multiple funding streams, the program functions as one. A visitor 
cannot tell which funding stream is funding which child, which part of 
the day, which teacher, or which set of classroom materials. We have 
vast amounts of paperwork that lay all that out, but it is invisible to 
the children, the families and our visitors. A reduction in that 
paperwork, greater alignment among program regulations and policies, 
and a clear focus on child outcomes among funding streams, would go a 
long way toward making our dreams of all children entering school ready 
for success a reality.
    With the new State plan, the Early Learning Challenge Fund 
guidance, and the school readiness and monitoring learning labs as 
backdrop, I bring recommendations on ways the CCDBG can become a 
vehicle for improved quality in all child care settings and can further 
ensure continuity of care in evidence-based programs for our highest 
need children.

                         POLICY RECOMMENDATIONS

    1. Formalize in statute the program guidance in place since 1999 
addressing alignment of eligibility periods with Head Start or State- 
or local-funded prekindergarten for children enrolled in both CCDBG and 
one or both of the other programs.
    2. Require States to establish eligibility redetermination policies 
that support continuity of care for all children for a period of at 
least 12 months, including limited or no reporting of changes in family 
income or work arrangements of the parents during the authorized period 
(as is already the case with Head Start and most prekindergarten 
programs that are means tested).
    3. Encourage all States to build or continue to strengthen an 
existing tiered quality rating and improvement system such that all 
early childhood settings (child care, Head Start, preschool) are 
included and incentivized to reach the higher levels of quality.
    4. Establish financial rewards for States that make steady progress 
in providing access to higher rated programs (as measured by QRIS) for 
higher needs children.
    5. In support of No. 4, allow States greater flexibility in using 
contracts for CCDBG slots with high quality providers (as measured by 
QRIS) by removing the requirement that each parent must be offered a 
voucher in lieu of a contracted slot.
    6. Require States to recognize the actual costs of higher quality 
when establishing reimbursement rate structures for CCDBG slots.
    7. Require that if States choose to use CCDBG funding for licensing 
and monitoring, the work performed with the funds is related directly 
to higher quality standards as measured by QRIS.
    8. Revise State reporting requirements so that we begin to measure 
what really matters, including the number of CCDBG-funded children 
enrolled in higher quality settings, the number of parents that remain 
employed, progress among providers in achieving the higher ratings 
within a State's QRIS, the alignment of standards within a State across 
all early childhood settings, and the progress of teachers in achieving 
higher levels of professional preparation.

    Thank you again for this opportunity to express my thoughts about 
how we can move forward as a nation in addressing outcomes for our 
highest need children. The CCDBG is an essential component in our 
forward movement, and I look forward to changes that will support 
greater alignment of this program with others within the fabric of 
early childhood care and education.

    Senator Mikulski. Thank you very much, Ms. Brantley.
    What I'd like to do now is turn to each one of my 
colleagues, starting with Senator Burr and going around--I'll 
be the last--to make sure we each get a question in, and then 
I'm going to kind of run this like open mike, where anybody can 
ask a question or jump in. That's why we wanted to do a 
roundtable, perhaps even cueing off of each other.
    Senator Burr, why don't I turn to you, and Senator Franken, 
Senator Blumenthal. Senator Blumenthal, are you leaving now?

                    Statement of Senator Blumenthal

    Senator Blumenthal. I apologize, Madam Chairman. I do have 
to leave. I'm going to try to get back, though.
    Senator Mikulski. OK. Well, go ahead. Do you want to go 
first? Thank you. I mean, we're trying to keep this loose.
    Senator Blumenthal. If I could ask a general question about 
background checks, and what role and how important do you think 
they are in this process.
    Ms. Brantley. As a direct provider of services, maybe I 
should jump in with the first answer to that. I think they are 
incredibly important and necessary, and I think that anything 
that we can do to assist local licensed child care providers to 
access information that is outside of what their State has is 
very important.
    We face this as a provider of services now. We do all the 
background checking we can possibly do, and yet we also know 
that there are databases that we cannot tap into that perhaps 
reside in New York State or someplace else where someone may 
have come from. So it's a very important process to do. 
Protecting the children from people who have been known to 
cause harm to others is absolutely basic.
    Ms. Bryant. From a researcher point of view, I have to say 
I don't know research on this area. It's obvious to me that 
children need to be protected from bad people. But I guess I 
would say--I mean, I think it's an excellent idea.
    I guess I would say that once you do that, don't forget 
that it alone, is not going to address quality. It's not going 
to address the teaching and the caring that goes on during the 
day. So it seems to me like it should be the floor. It should 
be at a minimum that that should happen, and then pay more 
attention to the more important things.
    Mr. Karolak. Just to cascade, I would also say they're very 
important. They're one way of protecting children in care. They 
won't guarantee quality, obviously. They also don't guarantee 
safety--that children are safe. The best background check in 
the world, of course, won't catch a first-time offender, and 
there are data issues. Charlotte mentioned access to databases. 
There's also issues in terms of what the level of automation, 
the level of data that's available in systems.
    But I think this is something we need to explore. We need 
to look at how there is variation over States.
    Senator Blumenthal. And are there ways to, No. 1, make it 
more comprehensive? You referred to some of the gaps in 
databases, and also make it less costly. I realize they may be 
competing or contradictory goals.
    Ms. Brantley. Right, it won't be free. That's for sure. 
And, you know, the nitty-gritty details of it, I would have to 
admit, I'm not probably the person. I've got staff in my 
program who could tell you absolutely. I do know that there are 
issues in terms of where are people registered as offenders of 
certain types, and data systems that don't talk to one another. 
Now, there are probably confidentiality issues around that. 
There are all kinds of other issues. From my perspective, 
though, what is paramount in terms of protection is the 
children, and as my colleagues are pointing out here, it's not 
the absolute silver bullet, but it's certainly a very important 
component, of knowing before you hire someone if there has been 
an issue.
    Senator Blumenthal. I understand that all of you agree that 
it's necessary but not sufficient for quality. But often the 
floor or the minimum is important to guarantee peace of mind at 
a basic level. And I want to join in thanking all of you for 
being here and apologize that I do have another commitment that 
I'm going to have to leave to attend. But I really admire your 
work and thank you for giving us the benefit of it. Thank you 
very much.
    Thank you, Madam Chairman, and thank you, Senator Burr, for 
giving me the opportunity to ask a couple of questions.
    Senator Mikulski. Senator Burr.
    Senator Burr. Thank you, Madam Chairman. And I might say to 
Senator Blumenthal, we estimate that the cost of the background 
check to be, on average, around $35 per background check. The 
Chairman told me that in Maryland it's $54. Even if that's a 
high water mark, which is an appropriate term I think today for 
Maryland----
    [Laughter.]
    Senator Burr [continuing]. Then I think we would all agree 
this is affordable, and I would hope that we would all consider 
it not as an add-on but as a floor requirement for any 
participants in the program. So I thank you.
    Let me get back to quality, because it's been the focus of 
the Chair's interest since the beginning. Our last hearing I 
think was entitled ``Are We Getting The Most Bang For The 
Buck?'' And, Dr. Bryant, you described a recent study that set 
out to test whether there might be a minimal just-good-enough 
standard, and let me just read what your findings said.

          ``Not only did the authors find no evidence of just-
        good-enough thresholds of quality, they found the 
        opposite. For these poor children, below certain 
        thresholds there were no gains, and the association 
        between quality and children's gains was stronger at 
        the higher quality levels than at lower levels for poor 
        children. Those who get the CCDBG grant subsidies may 
        get no social or academic benefit from low-quality 
        care. We will not realize a quality agenda if we don't 
        find a better way to infuse quality into the floor of 
        CCDBG.''

    And Ms. Brantley stated in her testimony,

          ``When the primary marker of success is the number 
        served''--in other words, a slot--``occupied in 1 year 
        by two to three children is cause for celebration, how 
        different would our policies, and therefore our 
        celebrations be if instead we were asked to report the 
        numbers served in programs with a proven track record 
        of preparing children for success in school and on the 
        number of parents that remained employed while their 
        children were enrolled? ''

    I think both statements get at the foundation of what we 
should stay focused on, the last being the threshold of the 
test, are we achieving what we set out to.
    In our last hearing, which was are you getting the most 
bang for the buck in quality early education and care, Dr. 
Bryant, the findings from the recent study you described seem 
to say that children of low-income parents, the target of 
CCDBG, will not realize the bang for the buck for the 
individual child, the family, or the American taxpayer until we 
get serious and set a floor of quality in the program. Have I 
got it exactly right?
    Ms. Bryant. Yes. That most recent study I spoke about took 
place in 11 States, so a large number. I mean, I think you can 
generalize the findings. It was with preschoolers, not infants 
and toddlers, but I think it just re-inforces our belief that 
quality is important for all children, but especially for low-
income children. So I appreciate the fact that your committee 
is trying to figure out how to infuse quality into CCDBG, and 
that's probably not a real easy thing to do, but I think you've 
heard some suggestions here today, and the question is how 
feasible are they to change the system.
    Senator Burr. Well, you said earlier you're sandwiched 
between practitioners and policymakers.
    Ms. Bryant. Yes.
    Senator Burr. And I'm trying to drill this point home for 
all the members of Congress, that from a policymaker's 
standpoint, why would we fund something that had no effect? So 
if we're going to fund it, which we all agree, not just for 
slots but for outcome, then why wouldn't we set the floor to 
where more people had the opportunity to experience gain?
    Ms. Bryant. Right. I mean, I absolutely agree with you. I 
understand that part of the reason for providing subsidies is 
so parents can go to work, and that's great. But you want them 
to be secure at work that their kids are doing well and they're 
learning something. So I think it would be wonderful if the 
baseline of CCDBG could be raised somewhat.
    Mr. Karolak. Senator, if I could jump in, quality counts. I 
mean, we all know that. I don't think anyone would suggest that 
any kind of care is OK in terms of providing an outcome, a 
level of quality. But not only does quality count, it also 
costs, and that's really the conundrum with the block grant. In 
order to define that level of quality, whatever the minimum 
base standard would be, we'll have to have resources to be able 
to meet that level of quality. That's part of the reason why we 
have children in some high-quality settings but not in all of 
those settings. And as long as we are looking at the kind of 
level of funding and the way it's distributed through that 
reimbursement rate, and the pressures the States are under, and 
here as well, it's going to be very difficult to obtain quality 
without paying more for it, and I think that's really the heart 
of this matter.
    Senator Burr. I understand fully what you're saying, but I 
want to go back to Ms. Brantley. This isn't about slots. It's 
about the outcome. Now, if you could serve 100 kids and have no 
quality, but you could serve 50 kids and have quality, what 
would you choose? I hope that is not the choice that we have.
    Senator Mikulski. That's an excellent question.
    Senator Burr. But I don't think we can look at it and say, 
``well, we can't meet this requirement because then we either 
reduce slots or we don't have a pool that's big enough of 
professionals.'' Well, that doesn't lessen the fact that our 
policy should be that we're going to make sure that every child 
that's in the system has the opportunity to gain because 
there's a quality metric there that we're testing, and I would 
add to that individuals who have cleared some type of check 
that we know that safety is a factor.
    Ms. Brantley, I know you want to say something.
    Ms. Brantley. This is, I think, the age-old dilemma in the 
program. I think you heard my colleague Eric. I believe he said 
one in six. I tend to spout out 15 percent, roughly the same, 
mathematically the same.
    We only reach approximately 15 percent of the potentially 
eligible children in this program anyway. It would take a 
whole----
    Senator Mikulski. One in five, or five in zero?
    Senator Burr. One in five.
    Ms. Brantley. Fifteen, 1-5. Sorry. It would take more money 
than we can ever dream of appropriating to serve 100 percent. 
So we're not going to serve 100. I think we have to start with 
that acceptance, frankly, much as we don't want to, that we're 
not going to be able to serve 100 percent of the eligible kids 
in this family.
    So then it does become a question of how well do we serve 
those that we can reach? We just went through a process in 
Colorado last year, not the most recent legislative session but 
the year before, and did enact a piece of legislation there 
with a lot of bipartisan support to extend the eligibility 
period to 12 months for all children, and to also align it with 
Head Start for children who were dually enrolled in both 
programs, and a lot of the conversation about that was an 
understanding that making that move would, in fact, could, 
probably will somewhat reduce our total numbers of children 
served, because we're not going to have two or three kids 
occupying every slot every year. So it may, in fact, reduce it.
    But it is going to ensure, particularly in the Head Start 
child care connection, it's going to ensure that children who 
are, in fact, enrolled in a program that is evidence-based and 
is intending to make a school readiness difference, that those 
children will get to stay there long enough for it to make a 
difference. In my written testimony I submitted to you a little 
paragraph about an actual family in our program who is right 
now facing having to pull back on the dosage, if you will--
that's one of Donna's words--the dosage of the high-quality 
program that we offer because we cannot afford to have the 
child in the program full-day/full-year without CCDBG subsidy, 
and the father is no longer eligible because he's lost his job.
    And so the child--we've already invested several thousands 
of dollars in this child and this family, and now we risk 
losing both the taxpayers' investment, and we risk losing, way 
more important, this child's absolute readiness for school. 
We're going to do the best we can in a half-day, part-year, but 
if we had the CCDBG subsidy still in place, that glue as I 
mentioned before, we'd bring this child across the finish line 
for sure.
    Senator Burr. Well, I might add that the length of time 
that it's been since we reauthorized the Act is a reminder to 
us of how things have shifted since then, and a new 
understanding of the continuity of care is one of many aspects, 
and all of these things beg us to do reauthorization, and to do 
it with the changes in mind.
    So, thank you, Madam Chair.
    Ms. Bryant. Could I add to Charlotte's comment that the 
research base for not kicking kids out in the middle of the 
year is that there's a good bit of research about the 
attachment, particularly of infants and toddlers, to their care 
provider, and how the disruption that occurs when they are 
coming and going, and also the same would be true for 
preschoolers, but also for the learning gains, that it's a very 
short period of time, even in a very high-quality program, 
isn't going to do them a lot of good. So I think there's some 
support for that.
    Senator Mikulski. We're going to move to Senator Franken 
now and come back.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair, for calling these 
series of hearings on early childhood.
    We have obviously this budget debate going on, and I always 
think of this as the debate that has to be about long-term 
sustainability of our deficits and our debt and what works best 
for the long-term. And if you make the right investments at the 
right time and the right cuts at the right time, that's going 
to have an impact on our long-term sustainability more than 
just focusing on short-term cuts.
    Basically what I'm hearing, of course, is that this is 
underfunded and that we're only serving about 15 percent of the 
kids who qualify. Is that right? And that we know that there is 
tremendous return on investment when kids have quality, high-
quality care, and that it costs money to raise the quality. Is 
that right? Does everyone agree on that?
    So the question really is, are we being penny-wise and 
pound-foolish by cutting investment in our children? And as I 
know in your testimony, you've said that this has an economic 
development aspect to it because kids--when parents have good 
quality daycare for their kids, they're free to go to work, and 
they can work and do their jobs.
    So I guess what I'm really asking is that if we're talking 
about long term, the long-term economic health of this country, 
would it be wise to increase funding for these block grants and 
do it in quite a significant way? Could this be scaled up in a 
meaningful way? Could we be training high-quality early 
childhood care providers in quantities enough that we can reap 
the benefits that we see when kids do have good high-quality 
early childhood education and early childhood care? Anyone care 
to take that overarching generalized question?
    Mr. Karolak. Well, absolutely. We all believe these are the 
best programs you can invest in, and far better sources have 
said this to this subcommittee. Earlier this summer you heard 
from Art Rolnick, a Federal Reserve economist from your State, 
Senator, and a body of research has demonstrated that 
investments in high quality have enormous returns, as much as 
$8 to the dollar invested. And there are ways to direct those 
dollars into higher-quality settings, to incentivize so that 
more low-income children are served in higher-quality settings. 
We're not saying nothing can be done. It just takes resources 
to do the best things, of course.
    I would go so far as to say that the shadow that's not in 
the room--you've alluded to it--is the current economic 
condition the country is in, and private paying parents are 
absolutely feeling that. The government is feeling that at the 
Federal and the State levels, and it's important to be thinking 
about how we parse the dollars so that we get the biggest bang 
for the dollar spent.
    The greatest challenge to quality most likely--I mean, we 
may look back in 6 months and say, actually the work being done 
by the Joint Select Committee or the work of the Congress as a 
whole in terms of grappling with the deficit, because if they 
choose to cut this program, which is a very real possibility, 
it would be simply devastating to the families that receive 
care, it would be a tremendous step backward for businesses 
trying to grow the economy, and it will ultimately hurt the 
children especially.
    So the stakes are high, and questions about quality can't 
be removed or separated out from issues about access and other 
aspects of how we fund this program. But absolutely, I think 
you'll find uniform agreement that we all think investments in 
high-quality early childhood are worth making.
    Senator Franken. When we compare how our kids are doing in 
school compared to other OECD countries, we see ourselves 
falling in comparison to them, and I'm wondering how early 
childhood and child care is conducted in these other countries 
that seem to be lapping us in achievement in school. Does 
anyone have any comment on that?
    Ms. Bryant. In some of the countries that are ahead of us, 
they have universal access at ages 3 and 4, and lots more 
options for care for infants and toddlers. But I also think 
many of those countries are under stress now, and they're 
probably conducting the same kind of conversations about how to 
keep their early childhood programs adequately funded.
    Senator Franken. When you say universal, we're talking 
about 15 percent right now that we serve.
    Ms. Bryant. Right. That's just 15 percent of the low-income 
children who qualify.
    Senator Franken. That's 15 percent of the low-income.
    Ms. Bryant. Right, right.
    Senator Franken. And when they say universal, do they mean 
universal?
    Ms. Bryant. Available, yes. Universally available.
    Senator Franken. Available. And so----
    Ms. Bryant. But not necessarily----
    Senator Franken [continuing]. So they have a completely 
different emphasis on this than we do, and the results are 
pretty staggering when you look at what the test scores are in 
other countries compared to what they are in the United States 
and how we are just falling behind. We know that our future 
economic prosperity will depend on our workforce, the quality 
of our workforce, our ability to compete, and when we're not 
making this investment, you wonder if we are hobbling ourselves 
for the future and whether we are hobbling our ability to pay 
off the debts that we are incurring and have incurred, and have 
incurred because of some bad policies in the past.
    Are we now compounding that by, in this time of fiscal 
restraints, cutting in the wrong areas?
    Senator Mikulski. I would like the answers to be crisp 
because I need to get to Senator Hagan.
    Senator Franken. I'm sorry to make that question so long.
    Ms. Brantley. Well, if I may, one point that I think we 
need to bring up here in answer to that question that is a 
fundamental issue with the Child Care and Development Block 
Grant and why things are sometimes so hard to marry these 
together, the CCDBG with Head Start with pre-K with other early 
childhood intervention services and things like that. This 
country decided, or maybe by default because there was no 
decision, in this country access to early childhood care and 
education is primarily paid for by parents, unlike public 
school, unlike, you know, if you're in Head Start maybe you get 
it without having to pay.
    But most of the early childhood in this country is paid for 
by parents, and they're having to purchase it--I know there's 
probably a lot of parents in this room who either used to or 
are currently now trying to afford that when they are likely in 
their own careers at the lowest income level they may ever have 
because they're new to the workforce, they're young.
    So we have established early childhood as a market as if it 
was being sold like a loaf of bread in the grocery store, and 
the comments that my colleagues have made here about the market 
rate, the 75th percentile--this, that, the other--we have 
limited ourselves in actually being able to use this funding 
stream to pay for quality by looking at it through the lens of 
how child care is sold to families in the general population. 
And we know that the highest quality care is flat-out 
unaffordable to most of our families, and yet we also know now 
through more and more research that people like Donna are 
doing, and many, many others, that the quality of the 
environment that children are in, particularly birth to 3, 
birth to 5, has direct correlations to how they do later. And 
if you want to measure it by 3rd grade reading scores, by some 
other measure of success, there is a very high correlation.
    And yet we have established ourselves in this country in 
helping families pay for it based on the market driving forces 
in it, and it just simply doesn't work, to be able to pay for 
quality with that kind of a mindset.
    Senator Franken. Thank you.
    Senator Mikulski. I'm going to move now to--I know others 
want to comment. Perhaps later on.
    Senator Hagan.

                       Statement of Senator Hagan

    Senator Hagan. Thank you, Madam Chairman. I really do 
appreciate you and Senator Burr holding this hearing. I think 
it's very, very important.
    In North Carolina, we've made really great strides. In 
1993, under the leadership of former Governor Jim Hunt, we 
established Smart Start, which placed a huge focus in North 
Carolina on quality child care, and being sure that children 
are healthy and ready to begin kindergarten.
    I was in the State legislature from 1999 to 2008, and we 
worked hard to establish Smart Start, and More at Four. As so 
many parents know, and Ms. Brantley, just pointed out, early 
childhood years are the most formative of time for the brain, 
and the more we can do to help educate and to ensure that they 
have a quality setting, quality instruction, quality people, it 
really does make a difference long-term.
    I'm very interested in this hearing today, and I really do 
want to honor Dr. Bryant, for her work at the Frank Porter 
Graham Child Development Institute at UNC Chapel Hill. I think 
you all do great work, and I'm honored that you're here with us 
today.
    In your testimony, Dr. Bryant, you say there's no singular 
approach to helping States improve the quality of child care, 
and that there are several areas in which States can develop 
initiatives to improve the quality of child care, and in 
particular you discuss the quality rating and improvement 
system. I know that in North Carolina we have the 5-Star rating 
program, and we've also got a program called TEACH, which is 
really helping people, who are employed in our child care 
centers, receive funding for extra education so they can do a 
quality job.
    I can remember being in the State legislature and getting 
postcard after postcard from these individuals saying thank you 
for this stipend to help me be better trained.
    Can you talk about whether or not other States are doing 
that? Is that anything that the Federal Government is also 
looking at?
    Ms. Bryant. TEACH in specific is I think in 26, was in 26 
States. Sue Russell has exported that program to many, although 
I think a couple of States may have cut it as a result of their 
State cutbacks this year. But that makes me think about Senator 
Franken's question about are there more cost-effective ways of 
doing things, and while we've put a lot of things in place in 
North Carolina to improve quality early childhood, I've always 
wondered if we are teaching--what we know is that the teacher 
is the most important factor in how well that classroom is run, 
what the kids are getting out of it, how much gain they make.
    I think we still could do a lot more in trying to find 
better ways of educating people for the early childhood 
teaching profession, and it may not necessarily be the same way 
you educate someone to teach high school. And we have sort of a 
graduated approach. In research, we look at it as is it a high 
school degree or a CDA, a child development credential, or an 
associate's degree, or a bachelor's degree. A teacher's 
progress along that educational continuum sometimes bears 
relation to the quality, but not always, and that's just the 
same as K-12. I mean, it's not an absolute predictor. And I've 
wondered if we could try some experimental ways of infusing 
quality in the early childhood profession.
    There was a recent paper about early childhood academies 
maybe being a way to get a lot of the important stuff in for 
people who just can't take 9 years through TEACH and finally 
get to their degree.
    Senator Mikulski. Twenty-three thousand dollars a year.
    Ms. Bryant. Pardon me?
    Senator Mikulski. For $23,000.
    Ms. Bryant. Oh, yes. Duke University dropped their early 
childhood program years ago. I don't know why they did it, 
really, but I figured it's because if you were paying $50,000 a 
year for tuition, you weren't going to have your daughter 
probably go to a teaching profession where you were making 
maybe $20,000 or $25,000 if you were lucky.
    So I think we could do some experimentation with the 
teaching core and how we improve that, and that may be a large-
scale way to infuse quality everywhere.
    Senator Hagan. Thank you. Thank you, Madam Chairman.
    Senator Mikulski. First I want to say to my subcommittee, 
I'm really proud of everybody. Your questions are so robust and 
content-focused, and I think there's a spirit here to 
reauthorize the bill. I will be, after this hearing, consulting 
with members exactly on that.
    I remember before 1996 when there was just scattered kinds 
of child care programs. One was focused primarily, though, on 
those on welfare, which was the old AFDC program. In 1996, this 
was all part of moving people from welfare to work. We had a 
booming economy. The Internet was coming. We thought America 
was going to head toward full employment, and we needed to 
provide the support services to do it.
    Well, the economy has changed, and this bill hasn't been 
reauthorized since 1996, and there's a new fiscal reality I 
think in the United States because we spent our money on other 
things; OK? We won't go into that, but we have.
    So where are we? This is where I'd like to ask one of my 
questions. I think we have to find the balance between 
regulation and strangulation--regulation where we really insist 
on proper standards for safety and quality, and at the same 
time are not so rigid, one-size-fits-all out of Washington 
regardless of the size of the State or the demography of the 
State.
    And then we have what I call underground daycare. For all 
of us who know and have worked in child welfare, we know that 
the thing that we would fear the most is children in 
environments where there is no supervision, no nothing 
actually, and they are truly a vulnerable population. So that's 
where I'm heading.
    So let me go to the safety questions. And then the other, 
you know, one of the big bugaboos besides money is mandates. 
Wherever you go, whether you're talking about the 
reauthorization of title 1 or this bill, they say, oh, God, 
whether you're a governor or a provider, don't give us more 
mandates. So we need to have local flexibility, and yet 
national standards. So you see where I'm heading.
    Let's go to the safety. I think there is the sense that 
there should be, as Senator Burr has done in his bill, 
background checks on those people we know will get government 
money. If government is going to help pay for child care, 
government should insist that people are fit for duty, and one 
of the criteria, of course, is that you do not have a record of 
criminal conviction, especially related to the abuse of 
children. So that would be No. 1.
    But the other goes to inspections. Now remember, States can 
only spend 4 percent, I think, on quality. They're limited on 
administrative funds. The DOD bill--you know, if you're in 
money from the Department of Defense, they mandate four 
inspections a year. I would imagine if I called the dynamic 
woman who was the governor of North Carolina, or Governor 
O'Malley, they'd say, ``Barb, love to, but just can't do it.''
    Do you believe that inspections of facilities are a 
necessity, and how frequently would you recommend them to be 
able to do that? I'm talking now about safety. I'll get to 
quality. Do you have a recommendation on this?
    Ms. Brantley. I'll jump in again from the perspective of a 
direct provider currently, as well as someone who has dealt 
with those issues on both sides, both as the regulator and as 
the regulee--is that the word?--the person being regulated.
    Senator Mikulski. What's the recommendation?
    Ms. Brantley. I do believe inspections are incredibly 
important. I think they should occur. I think that even perhaps 
once a year is not necessarily good enough. I see the drill my 
own staff go through when they know it's time for an 
inspection. Things get really good when they----
    Senator Mikulski. But that's an announced inspection.
    Ms. Brantley. That's when they know that it's time and it's 
coming at some point, in the next few weeks or months. There's 
sort of this mindset. In order to afford it, what we're trying 
to accomplish in terms of on-site inspections, I would like to 
see us look down the road to ways in which we can be combining 
and joining forces with others who inspect.
    The program that I run, it's a licensed child care 
facility, so it's inspected by child care licensing, it's 
inspected by the food program, it's inspected actually by the 
local arm of the State health department, it's inspected by 
Head Start, and it's inspected separately by Early Head Start.
    Senator Mikulski. So we have multiple inspections.
    Ms. Brantley. Federal agency, and it's inspected by the 
HIPPI USA because we use the HIPPI curriculum, and it's 
inspected by Denver Public Schools because we are a Denver 
Public Schools Colorado preschool program provider, and now 
we're being also inspected by the Denver Preschool Program. So 
we are inspected by funding stream, if you will.
    We are an incredibly high-quality program. We have all the 
stars you can get. We'd have more stars if there were more 
stars in Colorado's QRIS. We have incredibly clean every 3 
years Head Start and Early Head Start. There are never any 
findings in this program, and yet I am monitored by everybody 
and their brother. We're spending a lot of money to----
    Senator Mikulski. Well, let me jump in here. First of all, 
that was very insightful, really tremendously insightful, and 
I'd like you, because you are an actual hands-on provider, to 
give me a list of everybody that inspects you.
    Ms. Brantley. OK, I'd be happy to.
    Senator Mikulski. Because I think this is important, and I 
know it's exactly the kind of thing that Senator Burr is keen 
on, needless duplication and so on.
    Ms. Brantley. I think that the Office of Child Care is 
currently looking at that as well.
    Senator Mikulski. Let me go to my next point. One of our 
ways of thinking about it would be how certain inspections 
would deem appropriate for everybody; OK? It will be 
complicated, but there should be a way we'd make it for States 
to be able to do this.
    The second thing would be what I call good guy bonuses, 
that if you're inspected and, gosh, you're like, you should get 
fewer inspections every year, but some need more frequent 
inspections--in other words, the worse the record, the more 
frequent the inspection. So some might have to have four visits 
until they right their ship, and someone like you might have to 
only be inspected every other year. And I think there has to be 
a reward system.
    I'm a carrot and a stick kind of gal. So I think those 
are--do you think that's a good way to think about it?
    Ms. Brantley. I do think that there is some value in that. 
I also think, again, figuring out--and I will provide you with 
that list. I think figuring out where we can cut out the 
duplication would actually make it much more affordable to do 
those----
    Senator Mikulski. And perhaps make it much more flexible to 
the States to----
    Ms. Brantley. Yes.
    Senator Mikulski [continuing]. Keep up with that system.
    Ms. Brantley. Yes, right.
    Senator Mikulski. You know, I think where we all agree, 
then, is less Washington mandates, but certainly descriptive 
rather than prescriptive.
    Now, Dr. Karolak, that takes me to you. You were the 
hotline guy. You ran a hotline providing technical assistance?
    Mr. Karolak. The Technical Assistance Network that the 
Office of Child Care operates includes a hotline to help 
connect parents with providers.
    Your question earlier about could you report concerns about 
safety through that line, I'm not entirely sure. I'm sure if 
you did as a parent, they would get the appropriate attention. 
That line is manned very well, or staffed very well.
    Senator Mikulski. Do you like hotlines? Do you think they 
work? I used to love hotlines, but now I wonder do hotlines 
really work? They work in the Violence Against Women Act. We 
know that over a million women, in the original Biden 
legislation, have used it, and it's been enormously successful.
    Mr. Karolak. Yes, I think there's something worth looking 
at in terms of how that hotline that exists can be promoted to 
parents. Of course, you need to inculcate in parents an 
understanding of what quality is, what things to be concerned 
about when it comes to safety.
    Senator Mikulski. No. I'm talking about the guy that 
delivers the bread, and he just thinks something is funny every 
day; OK?
    Mr. Karolak. Sure.
    Senator Mikulski. I'm talking about really what a hotline 
is, and again that's the delicacy between reporting and 
snitching and retribution, because there's a lot that goes on 
in communities.
    Mr. Karolak. It would be good to have a way for anyone 
who's got concerns about a particular program, if there's 
something going on in the neighborhood, to be able to report 
that. I think that's probably a very good idea. I do think that 
ultimately it comes back to what does someone do with that 
information, and that requires--you know, we were talking about 
inspections, for example, and the workload that goes with that. 
That requires having folks able to go out on the ground to look 
into matters.
    I like this notion that you triage inspections so that 
problem providers get a little more attention, and some of the 
best programs maybe aren't given full inspections. There's key 
indicators that are focused on. And that is a way of triaging 
some of the workload.
    But a hotline will only identify something that needs to be 
followed up on. And so there's a----
    Senator Mikulski. But that's pretty good.
    Mr. Karolak. Oh, absolutely. It might be a way that a 
program----
    Senator Mikulski. That could be an option for a State to 
establish. In other words, rather than a national hotline where 
you get into privacy, who follows up, who tells who, more 
bureaucracy, more yeah-yes, yeah-yes, that you enable a 
governor through their legislative body to think about that. 
What do you think, Senator Burr?
    Senator Burr. I think you're onto something. I would 
caution all of us that hotlines in some cases can be used as a 
reason not to act, not to institute certain requirements that 
commonsense tells you you ought to do.
    Senator Mikulski. Like an inspection.
    Senator Burr. Like an inspection. I might say for the 
record, North Carolina does require four inspections a year. So 
we hit your threshold.
    Senator Mikulski. I'd like to tell O'Malley about that. 
It's bad enough we have to put up with your basketball teams.
    [Laughter.]
    Senator Burr. You've got quite a football team up there 
this year based upon how they played against----
    Senator Mikulski. And fashionistas, I might add.
    [Laughter.]
    Senator Burr. But I think you raise two really important 
issues, and that's how do we support the right policy, how do 
we reward people who go above and beyond from a standpoint of a 
quality institution and hopefully coordinate to where it's not 
overload from the standpoint of reporting or inspections, and 
how do we supplement the public's participation in the 
assessment of quality facilities or at-risk facilities I might 
say, and I think there's a way to publicly promote that, but it 
does have to be done at the State level and not at the national 
level.
    Senator Mikulski. I think that's something to think about.
    My last point, though, is about training and quality, 
because I think the consensus of the experts here is that one 
of the thresholds is that in order to get quality, you have to 
have people who know what they're doing. Now, the average rate 
of pay for a child care worker in the United States is under 
$25,000 a year. They often make less than the people who are 
getting the subsidy. So this is an issue, and I'm not 
commenting specifically on the problem of pay. I mean, we would 
all like it to be higher. So to ask them to pay is, I think, a 
burden. So the question is what is it we require, and what is 
it we require at what level, and then who pays for it?
    The question is do you have minimal accreditation 
standards, licensing standards? There seems to be a difference 
between accreditation and licensing and so on. And yet people 
have to be trained. And yet is it the teacher, is it the 
college graduate, is it an assistant who is not a college 
graduate but who loves children and has a unique way and 
valuable skill set?
    You know, we're talking about children--like everybody is 
going to show up with shiny, bright eyes and be toilet trained 
and ready to go, hoo-ha, give me that jar of Play-Doh. Many of 
our children have significant physical challenges, now a 
growing emotional challenge, particularly with the high rate of 
autism, particularly among our little boys growing up to be big 
boys. That's an enormous, enormous challenge.
    So what do you think about that? How rigid do you think our 
training should be? Right now there are no training standards.
    Ms. Bryant. You're right that the teacher is the most 
important. We do have standards that have been developed in 
almost every State, I think, for early learning, what children 
should know and learn, and we need to connect what teachers get 
taught so that they can teach to those standards.
    I think that licensing, just to clarify, licensing is what 
States do. When we say accreditation, typically we mean 
accreditation by the National Association for the Education of 
Young Children or one of the other national agencies, and 
that's usually at the high end of quality. So State licensing 
is sort of the baseline quality, and you would hope to achieve 
national accreditation. A nationally accredited--many States' 
QRIS's says if you've achieved national accreditation, you're 
at our top level.
    I got off track.
    For teachers, I think that it has to be individualized 
where they are, and I think that I want a college degree for 
every teacher because I think a college degree is the coin of 
the realm in our country. It's a human capital issue. It 
doesn't guarantee good teaching, and so they need training, 
technical assistance, consultation, whatever you call it, and 
possibly some of that is going to occur in the college 
classroom, or the community college classroom.
    TEACH is a good way of funding it. But again, it's one of 
those dollars versus leaving people where they are issues. So I 
wish I had a solution for you.
    Senator Mikulski. This will be my last question. Dr. 
Karolak, what do you think about that?
    Mr. Karolak. Well, first I hesitate to add anything to what 
Dr. Bryant has to say on this subject. She's a far greater 
expert than I am. But I would say, and I think this is--I know 
this is borne out by the research, that we know that the more 
early childhood-specific training and education a provider 
receives, the better the work that she does, and the better the 
outcome, the experience for the child.
    And so I think that as we think about licensing standards, 
having States require pre-service and the ongoing training 
requirements that include early childhood development-specific 
training is very important and is a way of making sure that the 
workforce that is there and its experience is embraced and is 
developed in that kind of continuum that Dr. Bryant mentioned.
    I think it's important to also note that the wage level, 
which is really the endpoint that we're trying to get to when 
talking about that, is a function of the public and private 
dollars that are available in the child care arena, in the 
early learning arena. And unless we see some great change in 
the valuation--you mentioned the coin of the realm--unless we 
see a change in the valuation of early childhood development in 
the society, it would be very hard to move that wage level 
without some significant help from Washington.
    Senator Mikulski. Well, I think that's an enormous 
challenge in today's fiscal climate, but it is worth 
consideration.
    One of the things we note, though, in nursing, that there 
is a continuum of certification, whether it's the certified 
nursing assistant, the licensed practical nurse, the 2-year 
person from our community college that performs an important 
role, to the 4-year bachelor's, to then a sophisticated 
master's degree nurse practitioner like from an outstanding 
school like Chapel Hill or Hopkins or the University of 
Minnesota, there is a continuum and they're called upon to 
perform different functions.
    Now, often we know a hospital, an acute care or a nursing 
home, again these are larger institutions with a lot of public 
participation and so on. But I think that there are lessons 
learned----
    Mr. Karolak. Absolutely.
    Senator Mikulski [continuing]. Where we look at a 
continuum, and then also establish a career ladder, where if 
you enter at one level, that you can then move to another, and 
then that level takes you to another over your own time as you 
progress. And I think this is an area--I think we can get real 
clarity on the safety issues with good ideas and local 
flexibility. But I think this education, as well as the 
funding, is going to be one of our biggest challenges. Do you 
agree with that?
    Senator Burr. Madam Chairman, I agree with you, and I want 
to highlight something that Dr. Bryant said, and I would ask my 
colleagues to think about this in the context of K-12 and the 
reauthorization of that legislation.
    Basically, what you said is we've got to look at the way we 
teach these folks to make sure it's appropriate for what we're 
asking them to do. Well, Erskine Bowles, when he was president 
of the university system in North Carolina, raised with me one 
day that he wanted to look into whether we taught teachers the 
right way to teach today's students.
    Now, unless you think about it in the simplicity of the way 
the statement was made, you wouldn't realize we can't teach 
teachers today the way we taught them 50 years ago because 
generationally and population-wise it's different. By the same 
standpoint, we probably need to look at how we go through the 
instruction process for workers in this field to make sure that 
it's appropriate for the curriculum that we're asking to be 
adopted. If we're not teaching them to meet the thresholds that 
you've identified, this is where you should be at the end of 
this period, then we've come up woefully short if we did 
everything else right. So it's not only appropriate here; I 
would ask my colleagues to think about it from the context of 
the reauthorization of K-12.
    Senator Franken. Well, and before K-12, since we're talking 
about early childhood, and Ms. Brantley, in your written 
testimony you said that the strategies for teaching infants, 
toddlers and preschoolers are different, so I think we have to 
be cognizant of that. I mean, not only are there 
differentiations between pre-K, but there are differentiations 
between infants and toddlers and other preschoolers.
    Ms. Brantley. Absolutely. And one of the things that we're 
finding that also has to be addressed in this whole 
conversation about teacher preparation is who is it that's 
doing the preparation of the teachers and how prepared are 
they? We discovered in Colorado that----
    Senator Mikulski. I think that signals a time for another 
hearing and another day. I think the issue of training has to 
be dealt with, and we could go into this in a substantive way, 
but our time here in this room has really expired.
    So thank you for your really content-rich, meaty 
contributions here, and the issues that you've raised that 
sparked a lot of thinking among ourselves. But what I hope that 
you come away with is that we really listened, we took it to 
heart, and we're also listening to each other despite what's on 
the media and so on. We're actually listening and working 
together with each other, and this is why I'm optimistic that 
this subcommittee will be able to produce a reauthorization of 
the Child Care and Development Block Grant, and look forward to 
that.
    We're going to be back to you when we hit a speed bump, a 
pothole, or flooding in our States. So thank you very much, and 
have a really safe trip home, and thanks for your willingness 
to come and testify.
    Senator Franken. Thank you.
    Ms. Brantley. Thank you.
    Senator Mikulski. You're welcome. The record will remain 
open for 10 days.

    [Whereupon, at 11:57 a.m., the subcommittee was adjourned.]

                                   


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
